<html>
<title> - BENGHAZI, INSTABILITY, AND A NEW GOVERNMENT: SUCCESS AND FAILURES OF U.S. INTERVENTION IN LIBYA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
 BENGHAZI, INSTABILITY, AND A NEW GOVERNMENT: SUCCESS AND FAILURES OF 
                       U.S. INTERVENTION IN LIBYA

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 1, 2014

                               __________

                           Serial No. 113-110

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
88-089                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4522352a05263036312d2029356b262a286b">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 1, 2014......................................     1

                               WITNESSES

Brigadier General Robert Lovell, U.S. Air Force (Retired), Former 
  Deputy Director for Intelligence and Knowledge Development 
  Directorate (J-2), U.S. Africa Command, Former Deputy 
  Commanding General of Joint Task Force Odyssey Guard
    Oral Statement...............................................     6
    Written Statement............................................     8
 Kori Schake, Ph.D., Research Fellow Hoover Institution
    Oral Statement...............................................    11
    Written Statement............................................    13
Daveed Gartenstein-Ross, Ph.D., Senior Fellow, Foundation for 
  Defense of Democracies
    Oral Statement...............................................    16
    Written Statement............................................    18
Frederic Wehrey, Ph.D., Senior Associate, Middle East Program, 
  Carnegie Endowment for International Peace
    Oral Statement...............................................    33
    Written Statement............................................    35

                                APPENDIX

``Lessons from Libya: How Not to Intervene'' Policy Brief from 
  September 2013 Harvard Kennedy School Belfer Center, submitted 
  by Rep. Chaffetz...............................................    88
``Libya's Guns Free-for-All Fuels Region's Turmoil'' Article by 
  Maggie Michael, submitted by Rep. Chaffetz.....................    92
NATO's ``Humanitarian Intervention'' in Libya: Transforming a 
  Country into a ``Failed State'' Article by Iskandar Arfaoui, 
  Gloval Research, submitted by Rep. Chaffetz....................    96
``West Should Have Put Boots on the Ground in Libya, says Former 
  Prime Minister'' Article by Mick Krever, CNN, submitted by Rep. 
  Chaffetz.......................................................    98
E-mails from State Department regarding Libya timeline, submitted 
  by Rep. Chaffetz...............................................   101
March 11, 2014, letter to the President regarding the Benghazi 
  attacks signed by over 60 members, submitted by Rep. Mica......   138
Statement from Rep. Cartwright...................................   141


              BENGHAZI, INSTABILITY, AND A NEW GOVERNMENT:

                              ----------                              


           SUCCESS AND FAILURES OF U.S. INTERVENTION IN LIBYA

                      Thursday, May 1, 2014
                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 9:33 a.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Mica, Duncan, Jordan, 
Chaffetz, Walberg, Lankford, Amash, Gosar, DesJarlais, Gowdy, 
Farenthold, Lummis, Woodall, Massie, Meadows, DeSantis, 
Cummings, Maloney, Norton, Tierney, Lynch, Connolly, Speier, 
Duckworth, Kelly, Horsford, and Lujan Grisham.
    Staff Present: Alexa Armstrong, Staff Assistant; Brien A. 
Beattie, Professional Staff Member; Molly Boyl, Deputy General 
Counsel and Parliamentarian; Lawrence J. Brady, Staff Director; 
Caitlin Carroll, Press Secretary; Sharon Casey, Senior 
Assistant Clerk; Steve Castor, General Counsel; John Cuaderes, 
Deputy Staff Director; Jessica L. Donlon, Senior Counsel; Kate 
Dunbar, Professional Staff Member; Adam P. Fromm, Director of 
Member Services and Committee Operations; Linda Good, Chief 
Clerk; Frederick Hill, Deputy Staff Director for Communications 
and Strategy; Christopher Hixon, Chief Counsel, Oversight; 
Caroline Ingram, Professional Staff Member; Jim Lewis, Senior 
Policy Advisor; Mark D. Marin, Deputy Staff Director of 
Oversight; Ashok M. Pinto, Chief Counsel, Investigations; 
Andrew Rezendes, Counsel; Laura Rush, Deputy Chief Clerk; 
Jessica Seale, Digital Director; Jonathan J. Skladany, Deputy 
General Counsel; Rebecca Watkins, Communications Director; 
Aryele Bradford, Press Secretary; Jennifer Hoffman, Minority 
Communications Director; Peter Kenny, Minority Counsel; Chris 
Knauer, Minority Senior Investigator; Elisa LaNier, Minority 
Director of Operations; Lucinda Lessley, Minority Policy 
Director; Juan McCullum, Minority Clerk; Dave Rapallo, Minority 
Staff Director; and Valerie Shen, Minority Counsel.
    Chairman Issa. The Committee on Government Oversight will 
come to order. Today's hearing on Benghazi Instability and a 
New Government: Successes and Failures of U.S. Intervention in 
Libya.
    The Oversight Committee's mission statement is that we 
exist to secure two fundamental principles. First, Americans 
have a right to know that the money Washington takes from them 
is well spent; and second, Americans deserve an efficient, 
effective government that works for them. Our duty on the 
Oversight and Government Reform Committee is to protect these 
rights. Our solemn responsibility is to hold government 
accountable to taxpayers. It's our job to work tirelessly in 
partnership with citizen watchdogs to deliver the facts to the 
American people and bring genuine reform to the Federal 
bureaucracy. This is our mission.
    Today, the Oversight Committee convenes a fourth hearing 
related to the security situation in Libya before, during, and 
after the September 11 terrorist attack in Benghazi which 
claimed the lives of four Americans. The committee has 
previously brought forward important witnesses who offered new 
enlightening testimony on security failures that forced the 
administration to walk back, false claims about the nature of 
the terrorist attack.
    The testimony of previous witnesses also identified key 
questions in the interagency process that only this committee 
has the jurisdiction and the charge to investigate. While much 
of the committee's effort in the investigation has focused on 
the Department of State, we have recently conducted several 
joint interviews of relevant military personnel with the House 
Armed Services Committee. While we had requested that these 
interviews be conducted as unclassified, the Pentagon 
leadership insisted that they occur at the inexplicable and 
unreasonable level of Top Secret.
    Some of my colleagues on the other side of the aisle have 
called for an end to this investigation. These calls are 
clearly premature, and only raise public concerns about the 
political agenda to stop an important investigation before it 
has completed gathering facts about this interagency Obama 
administration debacle. In particular, the committee seeks 
insight into communications and directions that flowed between 
the State Department, the Department of Defense and, yes, the 
White House.
    It is essential that we fully understand areas of 
responsibility before, during, and after the attacks. It's my 
hope that today's hearing will help us add to our 
investigation's expanding body of knowledge, and I am pleased 
that we will be proceeding on an entirely unclassified basis. 
We do so because the American people, more than anyone else in 
this body, have the absolute right to know why four men are 
dead in an attack that could have been prevented.
    We have a distinguished panel of witnesses before us today 
that will bring expertise to us about the current situation in 
Libya. One of our witnesses, retired United States Air Force 
Brigadier General Robert Lovell, brings with him firsthand 
knowledge of U.S. military efforts in Libya as he served at 
U.S. African Command.
    U.S. African Command is sometimes called AFRICOM. In the 
military command lingo, this is the organization that had 
responsibility, not just for Libya, but for the entire 
continent of Africa. This unit's mission included both the 
Libyan revolution and the September 11, 2012 terrorist attack 
on a diplomatic compound in Benghazi. At the U.S. African 
Command, General Lovell served as the Deputy Director For 
Intelligence and Knowledge Development and as Deputy Commanding 
General of Joint Task Force Odyssey Guard. In this assignment, 
he was tasked with helping the State Department reopen the U.S. 
embassy in Tripoli after the fall of Qadhafi. We appreciate all 
of our witnesses taking time to testify and enlighten the 
public about the situation in Libya and the effects of U.S. 
decisions.
    In addition to pursuing the relevant information about the 
military's involvement in Libya, we continue to receive 
documents from the State Department. Since late March alone, we 
have received over 3,200 new documents, many of which have 
never been seen before by anyone outside of the administration 
and all of which, and I repeat, all of which, should have been 
turned over more than a year and a half ago when the committee 
launched its investigation. Some of these documents which were 
brought to light only days ago through a FOIA request by an 
organization known as Judicial Watch, show a direct White House 
role outside--I'm going to repeat this. The documents from 
Judicial Watch's FOIA which were pursuant to our request more 
than a year and a half ago, show a direct White House role 
outside of talking points prepared by the Intelligence 
Community. The White House produced the talking points that 
Ambassador Rice used, not the Intelligence Community.
    In pushing the false narrative that a YouTube video was 
responsible for the deaths of four brave Americans, it is 
disturbing, and perhaps criminal, that documents like these 
were hidden by the Obama administration from Congress and the 
public alike, particularly after Secretary Kerry pledged 
cooperation, and the President himself told the American people 
in November of 2012 that, ``every bit of information we have on 
Benghazi has been provided.''
    This committee's job is to get to the facts and to the 
truth. I, for one, will continue to chip away at this until we 
get the whole truth. The American people--sorry. The Americans 
who lost their lives in Benghazi, those who were wounded, and 
the American people deserve nothing less.
    So today's hearing is critical for what our witnesses will 
give us, and I welcome you and I thank you for being here. But 
it comes in a week in which the American people have learned 
that you cannot believe what the White House says. You cannot 
believe what the spokespeople say, and you cannot believe what 
the President says, and the facts are coming out that, in fact, 
this administration has knowingly withheld documents pursuant 
to congressional subpoenas in violation of any reasonable 
transparency or historic precedent at least since Richard 
Milhous Nixon.
    I now recognize the ranking member for his opening 
statement.
    Mr. Cummings. Thank the chairman for yielding, and thank 
you for this hearing.
    In 2011, the people of Libya rose up against their 
dictator, Muammar Qadhafi, to end his oppressive role which 
lasted more than four decades. At the time, Republicans and 
Democrats alike strongly supported helping armed rebels in 
their efforts to overthrow Qadhafi. For example, in April 2011, 
Senator John McCain traveled to Libya and met with the rebels, 
after which he proclaimed, ``They are my heroes.''
    During a national television appearance on July 3, 2011, 
Senator McCain warned that allowing Qadhafi to remain in power 
would be far more dangerous to the United States than the 
alternative. He stated, ``This notion that we should fear who 
comes after or what comes after Qadhafi ignores that if Qadhafi 
stays in power, it is then a direct threat to our national 
security.'' During a television appearance on April 24 of 2011, 
Senator Lindsey Graham agreed that taking the fight directly to 
Qadhafi would protect our national security. He stated, ``You 
cannot protect our vital national security interests if Qadhafi 
stays.'' He also stated, ``The focus should now be to cut the 
head of the snake off.''
    As the revolution grew stronger, Qadhafi embarked on a 
brutal crackdown, and on March 17, 2011, he threatened his own 
people and warned that he would show them ``no mercy.'' The 
next day, President Obama explained to the world why the United 
States was joining the effort to remove Qadhafi, and he said 
this: The world has watched events unfold in Libya with hope 
and alarm. Last month protestors took to the streets across the 
country to demand their universal rights in a government that 
is accountable to them and responsive to their aspirations. But 
they were met with an iron fist. Instead of respecting the 
rights of his own people, Qadhafi chose the path of brutal 
suppression. Innocent civilians were beaten, imprisoned, and in 
some cases, killed.
    Senator McCain applauded the President's decision by the 
way. During a press conference in Libya, he stated, and ``Had 
President Obama and our allies not acted, history would have 
remembered Benghazi in the same breath as former Yugoslavia, a 
scene of mass atrocities and a source of international shame.''
    In an op ed in April 2011, Senator McCain wrote this: ``The 
President was right to intervene. He now deserves our support 
as we and our coalition partners do all that is necessary to 
help the Libyan people secure future freedom.''
    In October 2011, Qadhafi finally met his ugly demise. 
During his oppressive rule, he was an extremely dangerous 
tyrant. During the 1980s, he supported international terrorism, 
including the bombing of Pan Am Flight 103 over Lockerbie, 
Scotland, which claimed the lives of 270 innocent civilians. He 
also reportedly pursued chemical, nuclear and biological 
weapons. In fact, after Qadhafi was killed, the new Libyan 
government reportedly uncovered two tons of chemical weapons 
that Qadhafi had kept hidden from the world, yet armed and 
ready to use.
    As we all know our dedicated and patriotic special envoy 
named Christopher Stevens arrived in Benghazi to work with the 
Libyan people on their transition to democracy. He had forged 
deep connections and affiliations with the Libyan people during 
his career. He understood the challenges caused by 40 years of 
oppression. Ambassador Stevens believed in the promise of a new 
future for this country. Today Libya is at a crossroads. Open a 
newspaper and you will read about persistent violence in a 
country awash in weapons and a central government that has not 
yet consolidated its control over the country.
    On the other hand, the Libyan people continue to look to 
the West with respect and with hope. They aspire to work with 
the United States to build a stable, pro-democratic country.
    If we want the people of Libya to succeed, we must find a 
way to reengage the world and ourselves on behalf of a nation 
that desires our help. This was the bipartisan goal shared by 
Republicans like Lindsey Graham and John McCain who called on 
the United States, ``to build a partnership with a democratic 
and pro-American Libya that contributes to the expansion of 
security, prosperity and freedom across a pivotal region at a 
time of revolutionary change.''
    I hope today is a step towards this goal. I look forward to 
hearing from our witnesses about how we can assist the people 
of Libya. And with that, Mr. Chairman, I yield.
    Chairman Issa. I thank the gentleman. All members may have 
7 days in which to submit opening statements for the record and 
any quotes of Senator Lindsey Graham or John McCain they wish.
    For what purpose does the gentleman seek recognition?
    Mr. Chaffetz. Mr. Chairman, I have four documents I would 
lack to ask unanimous consent to enter into the record. One is 
from the Harvard Kennedy School, Belfer Center for Science and 
International Affairs, entitled Lessons From Libya, How Not to 
Intervene, dated September 2013. Another is an Associated Press 
article of March 22, 2014, entitled Libya's Guns, Free for All 
Fuels Regions' Turmoil. Another one is the Global Research of 
April 5, 2014. Headline is, NATO's Humanitarian Intervention in 
Libya, Transforming a Country Into a Failed State. The final 
one is a document that's listed as unclassified. It's a State 
Department document that I previously referenced by Congressman 
Trey Gowdy, and the subject line is Libya update from Beth 
Jones. The date is September 12 at 12:46 p.m. There's a 
paragraph in here that I think is pertinent to our discussions 
today. It's referencing the Libyan ambassador: ``When he said 
his government suspected that former Qadhafi regime elements 
carried out the attacks, I told him that the group that 
conducted the attacks, Ansar al-Sharia, is affiliated with 
Islamic extremists.'' This coming from the State Department 
going to Victoria Nuland, Patrick Kennedy, Cheryl Mills, 
Secretary Clinton's chief of staff. I'd like to enter this into 
the record which has not been out there in the public.
    Chairman Issa. One question. What was the date and time on 
that?
    Mr. Chaffetz. Date is September 12, 2012, 12:46 p.m. This 
is hours after the attack. It is what the State Department told 
the Libyan government what was happening, ``I told him,'' 
meaning the Libyan ambassador, ``that the group that conducted 
the attacks, Ansar al-Sharia, is affiliated with Islamic 
extremists.'' Those were the facts as the State Department knew 
them and I think everybody should see this.
    Chairman Issa. Without objection. So ordered and copies 
will be distributed to all members on the dais.
    Chairman Issa. We now welcome our guest and witnesses. 
Brigadier General Robert Lovell is the Former Deputy Director 
for Intelligence and Knowledge Development Directorate at 
United States African Command, and the Former Deputy Commanding 
General of Joint Task Force Odyssey Guard.
    Ms. Kori Schake, Ph.D. Is a research fellow at the Hoover 
Institution. Mr. Daveed Gartenstein-Ross, Ph.D., is a senior 
fellow at the Foundation for Defense of Democracies. Mr. 
Frederic Wehrey is a Ph.D. He is a senior associate for Middle 
East Program at the Carnegie Endowment for International Peace. 
General, your title is impressive, but they're all doctorates.
    Pursuant to the rules, if all witnesses would please rise 
to take the oath and raise your right hands. Do you solemnly 
swear or affirm that the testimony you are about to give will 
be the truth, the whole truth and nothing but the truth? Thank 
you. Please be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    In order to allow sufficient time for questions, I would 
ask that each witness summarize their opening statements which 
will be placed in the record in the entirety in addition to 
other extraneous material you may want to submit as a result of 
this hearing, but please try to stay close to the 5 minutes. 
And as my predecessor, Mr. Towns, often said, green means go 
everywhere. Yellow means hurry up through the intersection, and 
red means stop, so please observe that on the little countdown 
clocks. And with that, General, you're recognized.

                       WITNESS STATEMENTS

          STATEMENT OF BRIGADIER GENERAL ROBERT LOVELL

    General Lovell. Thank you, Mr. Chairman.
    Chairman Issa. And for all the witnesses, pull your mic 
close to you when you speak because they're fairly insensitive 
in that sense. Thank you, General.
    General Lovell. Thank you, Mr. Chairman, Ranking Minority 
Member, and members of the committee. I retired this past year 
after 33-plus years of service. My service began in 1979 upon 
enlistment in the United States Air Force. It's also been my 
honor and privilege to serve as an officer since earning my 
commission in 1985. Throughout these years I've served with 
many brave and distinguished men and women, both uniformed and 
civilian. I thank them for their service and their example. My 
time in service was filled with many great and humbling 
opportunities. I'm thankful for these as well. Over the span of 
my career, I've been shaped by professional education, 
training, and experience. These and other personal influences 
have formed my thoughts on today's subject.
    To present a sense of context, here's a brief outline of my 
previous service most relevant at hand. The chairman has 
already covered some. What I would like to add is as an AFRICOM 
plank holder, I twice served in Africa Command, first as 
Colonel as the NRO representative to the command, and next as a 
general officer as the Deputy Director of Intelligence and 
Knowledge Development Division. Additionally, I served as a JOC 
watch officer for Joint Operations Center during Odyssey Dawn 
and Operation Unified Protector. And in addition to that, I 
also served as the senior military liaison to National Science 
Foundation. That's relevant since the Science Foundation was 
also an interagency partner that greatly influenced my views on 
how interagency partnership works.
    My theme is three topics are submitted in my written 
statement. First topic, U.S. Africa Command and the interagency 
nature of that command.
    Second, Military Operations With Regard to Libya, discusses 
strategy, supporting policy, and policy in a highly dynamic and 
limiting--can be highly dynamic and limit strategy when it's 
challenged to achieve a desired result.
    Benghazi in 2012. This is the most serious of the themes. 
There are many sayings in the military. One saying that rings 
most true is you fight the way you train, and in Benghazi we 
did. Many with firsthand knowledge have recounted the heroism 
displayed by the brave Americans in Benghazi that night. They 
fought the way they trained. That's in the record. Outside of 
Libya there were discussions that churned on about what we 
should do. These elements also fought the way they were 
trained, specifically the predisposition to interagency 
influence had the military structure in the spirit of 
expeditionary government support waiting for a request for 
assistance from the State Department. There are accounts of 
time, space and capability, discussions of the question could 
we have gotten there in time to make a difference. While the 
discussion is not, could or could not of time, space and 
capability, the point is we should have tried.
    As another saying goes, always move to the sound of the 
guns. We didn't know how long this would last when we became 
aware of the distress, nor did we completely understand what we 
had in front of us, if we had a kidnapping, rescue, recovery, 
protracted hostile engagement, or any or all of the above. But 
what we did know quite early on was that this was a hostile 
action. This was no demonstration gone terribly awry.
    To the point of what happened, the facts led to the 
conclusion of a terrorist attack. The AFRICOM J2 was focused on 
attribution. The attacks became attributable very soon after 
the event. Thank you for the invitation to appear before this 
committee. I'm here because I take this matter very seriously. 
I'm prepared to take your questions.
    Chairman Issa. Thank you, General.
    [Prepared statement of General Lovell follows:]

    [GRAPHIC] [TIFF OMITTED] T8089.001
    
    [GRAPHIC] [TIFF OMITTED] T8089.002
    
    [GRAPHIC] [TIFF OMITTED] T8089.003
    
    Chairman Issa. Ms. Schake.


                    STATEMENT OF KORI SCHAKE

    Ms. Schake. Sir, I think the starting point for our 
conversation about Libya is that this is a failing state. 
Right? Security is eroding. Governance is ebbing, and as a 
result of those two things, Libya is unable to capitalize on 
its one big advantage which is the oil revenue on which its 
economy is predominantly based. And unless we are uninterested 
in this outcome, both for Libyans themselves and from the 
threats that are emanating to us from them, American policy 
should actually work to strengthen security in Libya and to 
strengthen governance in Libya so that the economy can help 
buffer the transition period of a fragile democratizing 
government.
    Our policies are not doing that. Our policies are 
principally interested in limiting our involvement, and as a 
result of that, the problems inherent in all transitioning 
societies, in societies that have lived 40 years under 
repressive governments and had dysfunctional economies, they 
need structured assistance and help. The United States knows 
how to do that in terms of security sector reform, in terms of 
governance, and yet we helped overthrow a government without 
helping establish security or governance. We have largely 
ignored the growing restiveness of militia in Libya and the 
migration of jihadists to Libya where, you know, the jihadists 
are now in possession of a Libyan government military base less 
than 20 miles from the capitol. And in overtaking that base, 
they also got some pretty valuable American military equipment 
which we are going to be seeing in Syria, in Libya, and even in 
our own country unless we really help manage the problem of 
jihadism in Libya and elsewhere.
    Building government capacity is the key to doing that. That 
is, we cannot expect that the Libyan government is going to be 
able to disarm militia or to control the spread of jihadism in 
their territory. That will be the result of political 
negotiation. It cannot lead political negotiation because 
militia will not disarm until they have a high level of 
confidence that the reason, the political vacuum that exists in 
Libya, is actually going to be managed by political means. The 
Libyans are having a very messy, very slow, one-step-forward/
one-step-back conversation about governance in their country, 
but this is what democratization looks like, and they deserve 
an awful lot more help from us and from nongovernmental 
institutions that the United States supports, the National 
Democratic Institute, the International Republican Institute. 
Instead, we have been largely silent on an election that was 
marred by violence and in which, you know, yesterday's 
parliamentary vote in Tripoli was prevented from coming to 
conclusion by storming of the parliament by armed men. As Mr. 
Cummings said, we need to do all that is necessary to help the 
Libyan government transition, and we are not.
    The last thing I would say is that if American policies 
won't help this fragile government transition to establish 
security and governance, that we ought actually to encourage 
other states to do so, states in the region that can situate it 
politically amongst its neighbors, or states from outside the 
country, and predominantly this administration's policies have 
criticized both the motives and the actions of others instead 
of encouraging them into a void our own policies are leaving.
    Chairman Issa. Thank you.
    [Prepared statement of Ms. Schake follows:]

    [GRAPHIC] [TIFF OMITTED] T8089.004
    
    [GRAPHIC] [TIFF OMITTED] T8089.005
    
    [GRAPHIC] [TIFF OMITTED] T8089.006
    
    Chairman Issa. Dr. Gartenstein-Ross.


              STATEMENT OF DAVEED GARTENSTEIN-ROSS

    Mr. Gartenstein-Ross. Chairman Issa, Ranking Member 
Cummings, distinguished members, it's an honor to appear before 
you to discuss the successes and failures of the NATO 
intervention in Libya. Two days ago, it seemed that we were 
seeing rare good news out of Libya. Oil exports were about to 
resume from the Zueitina port after rebels holding it had come 
to an agreement with the government. On another optimistic 
note, the interim parliament had convened to select a new prime 
minister. The previous prime minister had resigned only after 6 
days after his family was attacked. The prime minister before 
him was actually kidnapped by rebels. But the prime minister 
vote didn't go well. Gunmen stormed the parliamentary building 
and forced lawmakers to abandon their plans. This is Libya 
today. Each step forward seems to produce another step or two 
back usually driven by security problems.
    The central government can't execute basic sovereign 
functions in its own capital building. Last year gunmen shut 
down the ministries of justice and foreign affairs for two 
weeks due to a political dispute, the equivalent of gunmen here 
shutting down the Departments of Justice and State. Outside 
countries are questioning whether it's safe to even keep 
diplomats in Libya.
    Jordan's ambassador was kidnapped last month. Two Tunisian 
diplomats are being held by jihadists, and there have been many 
other attacks on embassies and diplomatic staff. I need not 
remind anyone here of what happened to our own Ambassador 
Stevens. I've submitted 15 pages of written testimony 
explaining at some length why I conclude that the cost of 
NATO'sintervention in Libya outweigh the benefits. It's worth 
acknowledging that the war was superbly executed. NATO 
responded with extraordinary speed to the situation and saved 
the lives that Qadhafi would have taken had he overrun 
Benghazi, the rebel stronghold that he was threatening when the 
intervention began. This was accomplished with no allied 
casualties and only a $1.1 billion cost, but the question 
remains: Was going to war in Libya the right choice? I would 
suggest that the strategy of intervention should be called into 
question. Several advocates of military action argue that the 
Arab Spring had stalled at the time and that intervening could 
help breathe new life and new momentum into the revolutionary 
events.
    The desire to see dictators fall is, of course, noble, but 
noble intentions do not automatically make for wise actions. 
NATO's intervention came when there was already wrenching 
changes and an unpredictable regional situation. The Tunisian 
and Egyptian leaders had fallen, and there were other 
revolutionary rumblings. Intervening represented not just a 
decision to stop Qadhafi's advance, but also to speed up the 
pace of change. The problems associated with speeding up events 
can be seen in the intervention's second order consequences. 
The most well-known occurred in north Mali where a collection 
of Al Qaeda-linked jihadists, including Al Qaeda's North 
African affiliate, and Tuareg separatist groups, gained control 
over broad swaths of territory prompting a French-led 
intervention in January 2013.
    Mali's Tuareg rebellion has a long history, but Qadhafi's 
overthrow transformed the dynamics. Libya's dictator had been a 
long-time supporter of Tuareg separatism, and with him gone, 
the Tuaregs had lost a major patron. Jihadist groups exploited 
the Tuaregs' loss of Qadhafi. There were other ways that NATO's 
intervention contributed to the jihadist takeover in Mali. 
Thousands of Tuareg rebels fought for Qadhafi as mercenaries, 
and after the dictator's defeat, they raided his weapons 
caches. Their heavily armed return to Mali reinvigorated a 
longstanding rebellion. The French military intervention pushed 
the jihadists from areas that they controlled, but there are 
signs that now a year later the jihadists may be back and, 
indeed, southern Libya has played a role in their comeback. 
Fighters from Ansar al-dine and Al Qaeda Islamic Maghreb fled 
from the advancing French and allied forces into southwest 
Libya and blended with local militants.
    The jihadists in North Africa have also been able to gain 
from the situation in Libya. A variety of Jihadist groups 
operate training camps there. Militants have benefited from the 
flow of arms into neighboring countries, and these factors make 
Libya a concern as a possible staging ground for future 
terrorist attacks, something vividly illustrated in the January 
2013 hostage crisis at Algeria's In Amenas gas plant, 30 miles 
from the Libya-Algeria border, which had multiple links to 
Libya, including training, weapons and point of origin.
    Despite the superb execution of NATO's intervention, it has 
created a much more complicated regional dynamic for the U.S. 
It has helped jihadist groups, and it has had negative 
consequences for Libya's neighbors. Further, it isn't clear 
that the intervention saved lives. Some scholars, including in 
the Belfer Center document that Representative Chaffetz 
introduced, argue that the fact that the NATO intervention 
prolonged the war, meant that on net it cost more lives than it 
saved. And even if it saved lives in Libya, further lives were 
lost as a result in places like Mali, Egypt and Algeria. This 
is why I cannot join with those who proclaim NATO's 
intervention to be a strategic success. Again, I appreciate the 
opportunity to testify, and I look forward to answering your 
questions.
    Chairman Issa. Thank you.
    [Prepared statement of Mr. Gartenstein-Ross follows:]

    [GRAPHIC] [TIFF OMITTED] T8089.007
    
    [GRAPHIC] [TIFF OMITTED] T8089.008
    
    [GRAPHIC] [TIFF OMITTED] T8089.009
    
    [GRAPHIC] [TIFF OMITTED] T8089.010
    
    [GRAPHIC] [TIFF OMITTED] T8089.011
    
    [GRAPHIC] [TIFF OMITTED] T8089.012
    
    [GRAPHIC] [TIFF OMITTED] T8089.013
    
    [GRAPHIC] [TIFF OMITTED] T8089.014
    
    [GRAPHIC] [TIFF OMITTED] T8089.015
    
    [GRAPHIC] [TIFF OMITTED] T8089.016
    
    [GRAPHIC] [TIFF OMITTED] T8089.017
    
    [GRAPHIC] [TIFF OMITTED] T8089.018
    
    [GRAPHIC] [TIFF OMITTED] T8089.019
    
    [GRAPHIC] [TIFF OMITTED] T8089.020
    
    [GRAPHIC] [TIFF OMITTED] T8089.021
    
    Chairman Issa. Dr. Wehrey.


                  STATEMENT OF FREDERIC WEHREY

    Mr. Wehrey. Chairman Issa, Ranking Member Cummings, and 
distinguished committee members, I'm grateful for this 
opportunity to speak with you about Libya's security crisis and 
what the international community can do to assist. I bring the 
perspective of both a scholar who travels frequently to the 
country and a reserve military officer who served in Tripoli 
prior to the revolution. During my four visits to Libya, I have 
spoken with Libyan government officials, military officers, 
Islamists and militia leaders across the country including in 
Benghazi.
    At the core of Libya's crisis is the power of its militias 
who draw support from a wide array of local, tribal, ethnic and 
religious constituencies. Their persistence is rooted in the 
absence of effective municipal governance, representative 
institutions and a strong central army and police. Since 2012, 
these militias have become politicized. They have used armed 
force to compel the passage of a sweeping law barring Qadhafi 
era officials from the government, kidnapped the prime 
minister, and blocked oil production in the east. Weapons are 
now the de facto currency through which demands are pressed and 
concessions obtained. Militias have also captured illicit 
trafficking networks.
    Libya's instability has been aggravated by a decision by 
the weak transitional government to put the militias on its 
payroll under the loose authority of the Ministries of Defense 
and Interior. The idea then was to harness the manpower of the 
revolutionaries to fill the security void left by the 
nonexistent army which was kept deliberately weak by Qadhafi 
who feared its potential for coups. By all accounts, this has 
been a disastrous Faustian bargain. It has attracted new 
recruits to the militias through the promise of high salaries, 
and it has given the militia bosses even more political power. 
That power is especially evident in the East where Islamist 
militias demand the removal of Qadhafi era personnel from state 
institutions and the implementation of a Sharia-based 
constitution before they surrender arms.
    These actors, however, remain on the outer fringes of 
Libya's politics and security institutions. Overwhelmingly, the 
country's Islamists reject violence for political means.
    Faced with the weakness of the central government, an array 
of informal societal actors, tribal elders, NGOs, municipal 
councils and religious authorities have mobilized against the 
militias, especially radical groups like Ansar al-Sharia. They 
have demonstrated a societal resilience and a moderation that 
has kept the country from sliding down the path of civil war.
    Mr. Chairman, I want to emphasize that every Libyan I spoke 
with attributed Libya's crisis to the enduring legacy of 
Qadhafi's rule rather than the policies or decisions during the 
NATO-led intervention. It was Qadhafi's 42-year tyranny that 
deprived Libyans of even a basic role in governance, pitted 
tribe against tribe and region against region, wrecked the 
economy, kept the security institutions deliberately weak, and 
marginalized the eastern part of the country. Overwhelmingly 
Libyans remain supportive of the NATO-led operation, and they 
welcome outside assistance.
    What are the areas where this assistance can be best 
applied? Obviously the most important task is reforming the 
security sector in training and equipping a new generation of 
Army and police. The U.S. and its allies are currently engaged 
in just such a project under the auspices of what is known as 
the general purpose force, but in doing so, they must ensure 
that the ranks of this new force are inclusive of Libya's 
diverse tribes and region and that effective civilian oversight 
is in place so that political factions do not capture the new 
security entities as their personal militias.
    It is important to recognize that lasting security cannot 
be achieved without addressing the economic and political 
motives that drive support for the militias. The government has 
tried with various schemes to disarm, demobilize, and integrate 
the young men of the militias. None of these efforts has 
succeeded because the country is paralyzed between opposing 
political factions. Each side sees any movement on the security 
sector as a win for its rivals. In essence, Libya suffers from 
a balance of weakness amongst its factions and militias. No 
single entity can compel the others to coercion, but every 
entity is strong enough to veto the others.
    With this in mind, the ultimate solution for Libya's woes 
lies in the political realm, in the drafting of a constitution, 
the reform of its elected legislature, and a broad-based 
reconciliation under the auspices of the national dialogue. 
These are areas where outsiders can lend advice and measured 
assistance, but where the ultimate burden must be borne by 
Libyans themselves.
    Thank you for the opportunity to speak with you here today.

    [Prepared statement of Mr. Wehrey follows:]

    [GRAPHIC] [TIFF OMITTED] T8089.022
    
    [GRAPHIC] [TIFF OMITTED] T8089.023
    
    [GRAPHIC] [TIFF OMITTED] T8089.024
    
    [GRAPHIC] [TIFF OMITTED] T8089.025
    
    [GRAPHIC] [TIFF OMITTED] T8089.026
    
    [GRAPHIC] [TIFF OMITTED] T8089.027
    
    [GRAPHIC] [TIFF OMITTED] T8089.028
    
    [GRAPHIC] [TIFF OMITTED] T8089.029
    
    [GRAPHIC] [TIFF OMITTED] T8089.030
    
    [GRAPHIC] [TIFF OMITTED] T8089.031
    
    Chairman Issa. Thank you. I'll now recognize myself for 5 
minutes of questioning.
    General Lovell, you were not on this or the Armed Services 
Committee's primary list of people that were interviewed in 
this process, and yet you came forward here today, came forward 
to the committee. Could you explain to us why you believe it 
was necessary to come forward to offer us your testimony?
    General Lovell. Yes, Mr. Chairman. I came forward because 
as a retired officer, most importantly, having served a number 
of years, I felt it was my duty to come forward. The young men 
and women that serve in uniform, those that serve along with us 
in civilian clothes, the circumstances of what occurred there 
in Benghazi that day need to be known. And with all of the 
discussion that ensues over a full forthcoming to the American 
people, it's important. It's a duty to be here.
    Chairman Issa. Thank you. Our committee has interviewed a 
number of people, including those downrange people, both in 
Libya and in Benghazi, but as I said earlier, we for the most 
part have not interviewed people at AFRICOM with the exception, 
of course, being General Ham, although Carter Ham was at the 
Pentagon on September 11. Do you believe it is appropriate for 
us to interview other officers and enlisted personnel that 
served with you in Stuttgart that day as part of our discovery 
of what they believe could have been done, not just in what the 
military people call the 2 shop, but also in the 3 shop and so 
on.
    General Lovell. Sir, I think if it's any information that 
gives the most well-rounded picture of the occurrences at the 
time are important to obtain.
    Chairman Issa. One of the questions as we fan out here, but 
one of the questions that I have for you is, your primary job 
is, in fact, knowing the risk, knowing who the bad guys are and 
where they are and knowing what might face them. Is that 
correct?
    General Lovell. Yes, sir.
    Chairman Issa. So your expertise is not in the operational 
response of what refuelers were where and could have reacted 
within a certain amount of time; is that correct?
    General Lovell. That's correct.
    Chairman Issa. However, you were intimately familiar with 
the risk of extremist groups in Egypt, Libya and throughout 
North Africa, and for that matter, all of Africa. Is that 
correct?
    General Lovell. That's correct.
    Chairman Issa. Now, African Command basically doesn't have 
any jets. It doesn't have any conventional divisions. Is that 
correct?
    General Lovell. That's correct.
    Chairman Issa. So you leverage all the other commands when 
you need physical boots on the ground. Is that right?
    General Lovell. Boots on the ground, planes in the air, 
ships in the sea, et cetera. Right.
    Chairman Issa. However, the role of African Command, and 
I'm not trying to put words in your mouth, so please correct me 
if I'm even a little off.
    General Lovell. I will.
    Chairman Issa. Is, in fact, to look at a continent in which 
we have almost no troops and almost no basing. We have a small 
joint base in Djibouti, I believe, but for the most part we 
have no major military assets in Africa. Is it fair to say that 
counterterrorism, looking for and being aware and working with 
the governments in Africa with, or without if necessary, to 
combat terrorism and, in fact, to make sure that governments 
are stable and able to support our missions, USAID and the aid 
missions and the embassies, is that really, to a great extent, 
why there is a unique command with a four star general in 
charge of it that focuses on this continent of a billion people 
larger than North America?
    General Lovell. That's precisely the understanding. It's to 
help Africans help Africans, and to work with Africans and our 
other partners to do so.
    Chairman Issa. So in that role, on September 11 earlier 
there was an attack in Egypt. Did you know of, anticipate, or 
do you believe that the attack in Egypt was based on seeing a 
YouTube video?
    General Lovell. Personally no.
    Chairman Issa. So that never came to you even though 
intelligence and what may have caused something would have been 
right up your, if you will, 2 alley?
    General Lovell. Yes, sir.
    Chairman Issa. And in the hours that ensued after the 
attack on our compound in Benghazi, did you hear YouTube video?
    General Lovell. Briefly discussed but not from any serious 
standpoint.
    Chairman Issa. What time did you first hear that there was 
a video roughly?
    General Lovell. It was early on in the evening of September 
11.
    Chairman Issa. Before 3:15 in the morning?
    General Lovell. Absolutely. We were--absolutely. We were, I 
would have to say, probably dismissed that notion by then by 
working with other sources.
    Chairman Issa. Okay. I just want to follow-up this one last 
thing. You heard about this early on, and you, as the deputy 
and the highest ranking person that moment working these 
issues, you dismissed the idea that this attack was, in fact, a 
demonstration that went awry and was based on a YouTube video 
out of Los Angeles?
    General Lovell. Yes, sir.
    Chairman Issa. Thank you. Recognize the ranking member.
    Mr. Cummings. Thank you very much. More than 3 years ago, a 
wave of political change swept through the Middle East and 
North Africa. This Arab Spring promised hope for people 
oppressed by dictators for decades, but it also led to abrupt 
change and sometimes budding conflicts. I'm looking forward to 
hearing about how this movement has evolved over the last 3 
years and how the United States can support a peaceful 
democratic transition in the region.
    I'd also like to focus on the choice our country faced when 
the uprising against dictator Muammar Qadhafi began in 2011. At 
that time, the United States could have done nothing and 
allowed Qadhafi to remain in power, or we could have supported 
the liberation of the people of Libya. At the time, both 
Republicans and Democrats called on the President to support 
the rebels and oust Qadhafi. For example, on April 24, 2011, 
Senator Lindsey Graham said this, ``You cannot protect our 
vital national interests if Qadhafi stays.'' General Lovell, I 
want to thank you for coming forth. I really do. Do you agree 
with Senator Graham that Qadhafi was a threat to our national 
security?
    General Lovell. Yes, I do.
    Mr. Cummings. And, Dr. Schake, how about you? Do you agree 
with that?
    Ms. Schake. Yes, I do.
    Mr. Cummings. And I think you, a little bit earlier, agreed 
with me that there are things that we need to do to be 
supportive of the government. What would those things be, 
Doctor, the present situation?
    Ms. Schake. There are several things. First as several 
panelists mentioned, helping establish a Libyan national army 
that can actually police Libya's territory, reign in the 
militia as you begin to get political solutions to problems 
that will permit their disarmament. Second, support and help 
structure and help organize civil society and elections in 
Libya. We are doing much, much, much too little in helping the 
Libyans move a political process forward and we do that largely 
with examples, our own example, but also what all of us know 
about democratizing societies. We know how to do this. We're 
just not doing it nearly enough.
    Mr. Cummings. Well, 3 months later on July 3, 2011, Senator 
John McCain stated, ``If Qadhafi stays, it is then a direct 
threat to our national security.'' Dr. Gartenstein-Ross, what's 
your view, and did you agree with Senators McCain and Graham?
    Mr. Gartenstein-Ross. I do not, sir. Qadhafi was a brutal 
dictator. Nobody should have tears for him, but he was also 
about as rehabilitated as a dictator could be. I think that the 
statement that he threatened our national security would have 
been very true in the 1980s, true in the 1990s, but by 2011, he 
was, at most, a third or fourth tier security concern, in my 
view.
    Mr. Cummings. So therefore you disagree with the Senators?
    Mr. Gartenstein-Ross. Yes, I do, sir.
    Mr. Cummings. Dr. Wehrey, do you agree with the Senators?
    Mr. Wehrey. Well, I believe that Qadhafi was keeping a lid 
on a lot of things that were brewing. I mean, he was probably 
not a direct security threat the way he was in the 80s, but it 
depends on how we define security. I mean, many of the ills 
that spilled over from Libya and the current problems with 
Libya were because of his rule, because of the way he kept 
things clamped down, didn't permit civil society, marginalized 
the East. I mean, the seeds of extremism were sown during his 
regime. So in that sense, it was a security threat I think, and 
we know that Libyans were fighting in Iraq and Afghanistan, so 
he was exporting a lot of those problems beyond his borders.
    Mr. Cummings. And what do you think we should be doing? 
What steps should the United States be taking to improve the 
situation in Libya?
    Mr. Wehrey. Well, I think under the circumstances the U.S. 
is doing quite a lot with other partners in Europe and 
elsewhere. The U.S. is committed to train over 19,000 new 
Libyan soldiers as part of the general purpose force along with 
Turkey, Britain, Italy, and Morocco. This proposal is underway. 
We're engaged in civil society. Much of the problem is the lack 
of a partner on the other side. There's such a disarray in the 
Libyan government that we can't really interface with them. So 
for instance, the Libyan government has not agreed to provide 
payment for the general purpose force, which is why we're 
unable to move forward with this training of the new Army. But 
during my four travels to Libya since the revolution, I found 
the international community has been engaged, and the U.S. is 
there in terms of reforming the defense sector, helping with 
ministerial oversight, reaching out to Libya's vibrant civil 
society. A lot of this, the problem is access. The security 
situation doesn't permit our diplomats to go out and reach 
Libyans.
    Mr. Cummings. And General Lovell, what would you have us do 
there now to make the situation better in Libya?
    General Lovell. Well, sir, no longer serving and having 
access to a lot of the pertinent information and data, I 
wouldn't be able to give you a strong military answer to that. 
My personal answer to that would be one where it's a set of 
circumstances where we would have to work together to develop, 
that development would have to be very engaged on the ground 
with the people to make that happen.
    Mr. Cummings. Thank you very much.
    Chairman Issa. Thank you, and I ask unanimous consent just 
to put something in the record at this time. Our records show 
that or agreed to be made public that we have interviewed, as I 
said, the Combatant Commander, General Ham. We have also 
interviewed the Vice Commander, Admiral Leidig, Admiral Landolt 
and Losey, or Rear Admiral Losey, who's the SOC commander. 
Would you agree to provide the committee additional suggestions 
of the people that from your recollection are, outside of this 
hearing so that it not be public, the people you believe would 
be most helpful to gain knowledge directly of the facts on the 
ground on that day?
    General Lovell. Yes, sir.
    Mr. Cummings. May I?
    Chairman Issa. Of course.
    Mr. Cummings. Of the list of people that we have already 
interviewed, I'm sure you're familiar with those titles, would 
they be people that would be able to render an opinion like you 
were able to--and I'm not saying you would come up with the 
same conclusion, but would have the same type of information to 
render an opinion? These are people who are public servants who 
are military people. I'm just curious.
    General Lovell. Sir, I know each of those gentlemen and 
served with them.
    Mr. Cummings. An what do you think of them?
    General Lovell. Fine officers.
    Mr. Cummings. And so would they be in a position to render 
an opinion as you have?
    General Lovell. Yes, sir.
    Mr. Cummings. Very well.
    Chairman Issa. Okay. So I think we have established that 
we'll get additional names and that the names that we have 
already interviewed would be ones that would have been on your 
list? Yes.
    General Lovell. Yes.
    Chairman Issa. Thank you. And I thank the gentleman from 
Florida. Recognized for 5 minutes.
    Mr. Mica. Thank you, Mr. Chairman.
    General Lovell, a couple of questions. First of all, you 
have testified that we knew the night of September 11 that this 
was not just, say, the result of some of the video that had 
been shown. We knew this wasn't just a demonstration. We knew 
this was a concerted attack?
    General Lovell. Yes, I did.
    Mr. Mica. Okay. That being said, in your position, you 
would know sort of who knew what. The State Department also 
would have known pretty instantaneously that there was a pretty 
serious incident going on in Benghazi. I've seen videos of it. 
Some of that was transmitted into the State Department and 
other locations. So we had a pretty good idea of what was going 
on there. You did. Would you say the State Department should 
have or could have?
    General Lovell. It could or should, yes, sir.
    Mr. Mica. Okay. The attack started at 9:40, which was 3:40 
in the afternoon here, approximately a 6-hour difference, I 
think. Is that correct?
    General Lovell. Yes.
    Mr. Mica. So it wasn't an unusual time here in the United 
States that appropriate people and the highest level people 
should have been alerted that something serious was going on at 
one of our posts; is that correct?
    General Lovell. It was during the duty day here in the 
United States, yes, sir.
    Mr. Mica. I don't know if we could have saved the 
Ambassador and aide that was with him. They may have been 
killed in the smoke or the first part of that. Would you say 
that was a pretty good assumption, that they were not, it was 
not possible to save them because they were probably killed 
within an hour or two--the U.S. really doesn't have a 
capability of responding there. Not that we shouldn't have had 
on the ground the capability to respond to some kind of attack. 
Would that be a correct assumption?
    General Lovell. You would typically, greatest desire for 
whatever situation you were going to be in to have adequate 
security.
    Mr. Mica. I know we have over 100 posts, and there were 
about 14 listed on sort of the endangered or high risk list, 
and Benghazi was one of them. Isn't that correct?
    General Lovell. You would have to look to the State 
Department for that. I don't know.
    Mr. Mica. We were told that in the past, so if someone 
failed, they failed to have the proper protections were the 
posts at risk. Every post doesn't have the same risk. Every 
point we don't have the same risk, but that was one of the 
major ones. The time frame didn't allow us maybe to save the 
Ambassador because they came in and attacked. It was an attack. 
It wasn't a little demonstration in the street. I believe we 
had enough time to save the two former Navy SEALS that were 
trying to protect the post. They were killed at approximately 
5:15 a.m. It started at 9:40. That's a good 6 hours. I've been 
to Italy. I've been to Spain. I've been to Turkey. I've been to 
Stuttgart. I was informed, as a Member of Congress, if we had 
an incident, this is before Benghazi, that we could respond, we 
had the capability of responding in a short order to save 
American personnel, particularly an ambassador or key assets or 
American citizens from points, and North Africa isn't exactly 
the toughest spot. There are places deeper in Africa that are 
tougher to get to, but I believe we could have saved those two 
if someone had taken action. Do you think we had the ability to 
do that?
    General Lovell. Presently or at the time?
    Mr. Mica. At the time.
    General Lovell. At the time, it didn't happen that way, and 
others have discussed the time sequence.
    Mr. Mica. Did the United States of America have the ability 
to protect its, again, people at that post within 6 hours?
    General Lovell. The State Department would be responsible 
for the time on the ground. Military could have made a response 
of some sort.
    Mr. Mica. The military could have made a response.
    General Lovell. Of some sort.
    Mr. Mica. I believe those two individuals were not saved--
Mr. Issa and I went to Roda. We interviewed people. Our 
military personnel, they were not given the go-ahead. They were 
not given the assets. No one responded to go in and save the 
two individuals who were lost at approximately 5:50, and I 
believe we had that capability. Can you tell the committee if 
you think we had the capability of saving them at that time 
once again?
    General Lovell. You just mentioned personnel, assets and 
time and distance. Do I think we had all of those things put 
together at that moment? I wasn't in operations----
    Mr. Mica. But again, it's not--again, we had that 
capability, I believe. I was told even before this that if we 
had an incident, that we could go in and rescue or save or 
resolve the situation, and do you believe we had that 
capability?
    General Lovell. If capabilities were in hand, then they 
could be employed.
    Mr. Jordan. [Presiding.] The gentleman from Virginia is 
recognized.
    Mr. Connolly. I thank the chair. Welcome to our panel.
    General, let me pick up on that. You were not in the 
operational chain of command, is that correct, at the time of 
the tragedy?
    General Lovell. Not in the chain of command. I was serving 
in a staff role at that point in time.
    Mr. Connolly. Right. So you weren't making decisions?
    General Lovell. That's correct.
    Mr. Connolly. I don't know if you're familiar with the fact 
that the House Armed Services Committee on February 10th issued 
a report, the Republican majority issued a report, and I want 
to quote from it and see what part of this you disagree with, 
because my friend from Florida suggests we could have, should 
have done something from, for example, Rota, Italy.
    Secretary Panetta--I'm quoting from the report--I mean 
Spain rather--in consultation with General Ham, General 
Dempsey, and others verbally authorized three specific actions. 
First, two Marine FAST platoons in Rota, Spain, were ordered to 
prepare to deploy, one bound for Benghazi and one destined for 
Tripoli. Second, a Special Operations unit assigned to the 
European Command known as Commander's In-Extremis Force, CIF, 
training in Croatia was ordered to move to a U.S. Naval air 
station in Italy and await further instructions. And third, a 
Special Operations unit in the United States also dispatched to 
the region. These orders were issued approximately 2 to 4 hours 
after the initial attack. Is it your contention that we could 
have done it sooner or should have done more of it? Or do you 
deny this happened?
    General Lovell. My belief, as I put in my statement, has to 
do with we should have continued to move forward with whatever 
forces we were going to move forward with. The timeline and 
what specifically happened there was in the operational 
channels. What I'm looking at is the future, and how we choose 
to respond in the future really needs to be along the lines of 
the military feeling empowered to take action under the 
authorities that it has----
    Mr. Connolly. Yes.
    General Lovell. --so that they can move forward and do that 
when the capabilities exist.
    Mr. Connolly. I want to read you the conclusion of the 
committee, the Republican chairman, Buck McKeon, who conducted 
formal briefings and oversaw that report. He said, ``I'm pretty 
well satisfied that given where the troops were, how quickly 
the thing all happened, and how quickly it dissipated, we 
probably couldn't have done much more than we did.''
    Do you take issue with the chairman of the Armed Services 
Committee in that conclusion?
    General Lovell. His conclusion that he couldn't have done 
much more than they did with the capability and the way they 
executed it?
    Mr. Connolly. Given the time frame.
    General Lovell. That's a fact in the record, the way it is 
written, the way he stated it.
    Mr. Connolly. Okay. All right. Because I'm sure you can 
appreciate, General, there might be some who for various and 
sundry reasons would like to distort your testimony and suggest 
that you're testifying that we could have, should have done a 
lot more than we did because we had capabilities we simply 
didn't utilize. That is not your testimony?
    General Lovell. No, that is not my testimony, no, sir.
    Mr. Connolly. I thank you very much, General.
    Well, actually, Mr. Gartenstein-Ross, if I understood your 
testimony, Libya is a mess. I mean, it's a very unstable, 
violent environment. There is no central government control, 
and that's the environment in which we're trying to work and in 
which we were working at the time of the tragedy in Benghazi; 
is that correct?
    Mr. Gartenstein-Ross. Yes, that's correct, sir.
    Mr. Connolly. And no amount of U.S. troops, security forces 
even at the time of the tragedy in Benghazi was going to change 
that environment; is that correct?
    Mr. Gartenstein-Ross. Yeah. I mean, certainly you're not 
going to change the fact that the central government can't 
exercise a writ.
    Mr. Connolly. You know, like my friend from Utah, I went to 
Tripoli, not Benghazi, and the airport at the time was--
security at the airport was controlled by a militia----
    Mr. Gartenstein-Ross. Yeah.
    Mr. Connolly. --not by the government. I don't know if 
that's changed. Has it?
    Mr. Gartenstein-Ross. I'm not aware if--of whether it has 
now.
    Mr. Connolly. Yeah. That made one very uneasy about 
security, you know. Let's hope they're friendly. But it's 
obviously painful transparent symbolism of the lack of any 
central authority. And I see you shaking your head, Ms. Schake, 
as well. Did you want to comment?
    Ms. Schake. I agree with you.
    Mr. Connolly. Yeah. I just think that's also very 
important, the testimony the three of you have provided, which 
I very much appreciate. But, I mean, you know, again people can 
play politics with a tragedy all they want. The fact of the 
matter is at the time of the tragedy and even to this day, 
Libya is a very unstable situation postrevolution, and the 
object is to do the best we can to try to change that dynamic 
to create a more stable government that can provide security 
not only for us and our diplomats, but also for its own people. 
Fair statement, Dr. Wehrey?
    Mr. Wehrey. Absolutely. I mean, as I mentioned, we--I mean, 
since, I think, 2013 the U.S. has been planning for helping the 
Libyan Government with its security forces. Our diplomats are 
involved with reaching out to civil society, but it's a tough 
challenge, and, I mean, I really want to emphasize that a lot 
of this is on the Libyans' shoulders. I mean, this is a country 
that needs to reach a broad political reconciliation among its 
factions before they can be in a position to receive outside 
help. So when I talk to people from AFRICOM and State 
Department, there's just this sense that there's a lack of 
partnership on the other side, and you need that. And I think 
much of this is taking time. I mean, Libyans are moving 
forward. They are writing a Constitution. They held elections 
in 2012 that by all accounts were relatively transparent and 
fair, and they remain very pro-American, which is in contrast 
to many other countries in the region.
    Mr. Connolly. Thank you very much, and I want to thank all 
four of you for your testimony. I think it's very enlightening, 
and actually it's a contribution to what has heretofore been a 
rather desultory conversation about the tragedy in Libya. Thank 
you very much.
    Thank you, Mr. Chairman.
    Chairman Issa. [Presiding.] I thank the gentleman.
    For what purpose does the gentleman from Florida seek 
recognition?
    Mr. Mica. A unanimous consent request. March 11th, along 
with more than 60 Members, sent this letter to the President 
saying it had been a year and a half since the Benghazi 
attacks, nothing had been done to bring these people to 
justice, and asking for the administration to act. I would like 
that to be part of the record.
    Chairman Issa. Without objection, so ordered.
    Chairman Issa. The gentleman from Utah is recognized for 5 
minutes. Mr. Chaffetz.
    Mr. Chaffetz. Thank the chairman, and thank you all for 
being here. Thank you for your service to your country, and, 
General, God bless you. Thank you for your service, over 33 
years.
    What was--on September 11, 2012, what was your rank and 
title?
    General Lovell. Brigadier general, United States Air Force, 
and I served as the Deputy Director for Intelligence and 
Knowledge Development, J2.
    Mr. Chaffetz. J2.
    Where were you the night of September 12th, September 11th 
and 12th?
    General Lovell. I was at my home until I was recalled to 
the JOC, Joint Operations Center.
    Mr. Chaffetz. Joint Operations Center in Germany?
    General Lovell. Yes, sir.
    Mr. Chaffetz. You were in the room?
    General Lovell. Yes, sir.
    Mr. Chaffetz. You were able to see, hear, feel, understand 
what was going on in that room?
    General Lovell. We work towards understanding. That's the 
job of the J2, yes, sir.
    Mr. Chaffetz. Were you ever interviewed by the 
Accountability Review Board, the ARB?
    General Lovell. No, sir.
    Mr. Chaffetz. CIA station chief--your prime responsibility 
was to try to--as you say in the last sentence of your 
testimony, that the attacks--the AFRICOM J2 was focused on 
attribution; that attacks became attributable very soon after 
the event. What do you believe they were attributable to?
    General Lovell. That they were attributable to an Islamist 
extremist group.
    Mr. Chaffetz. Al Qaeda?
    General Lovell. It was--we felt it was Ansar al-Sharia.
    Mr. Chaffetz. Which is affiliated with Al Qaeda?
    General Lovell. Yeah. Yes, sir.
    Mr. Chaffetz. AQIM, were they involved?
    General Lovell. The AAS is who we most principally looked 
at, but all of the groups at large.
    Mr. Chaffetz. How quickly did you come to the conclusion 
that you believed that there were Al Qaeda affiliates or Al 
Qaeda themselves involved and engaged in this attack?
    General Lovell. Very, very soon, when we were still in the 
very early, early hours of this activity.
    Mr. Chaffetz. Was it a video?
    General Lovell. No, sir.
    Mr. Chaffetz. Was it a video that sparked a protest?
    General Lovell. No, sir.
    Mr. Chaffetz. What I want to get at, Mr. Chairman, are the 
facts at the time. That's what the White House keeps talking 
about, the facts at the time. The CIA station chief is quoted 
as saying, ``quote, quote, quote, not not an escalation of 
protest, end quote.'' Would you agree or disagree with the CIA 
station chief's analysis?
    General Lovell. That it is not not an escalation? 
Absolutely. It was an attack.
    Mr. Chaffetz. Beth Jones at the State Department, in an 
email that went to, among others, Hillary Clinton's Chief of 
Staff, says that she told the Libyan Ambassador--this is 
September 12th, 12:46 p.m.--``I told him that the group that 
conducted the attacks, Ansar al-Sharia, is affiliated with 
Islamic extremists. Would you agree or disagree with that 
statement?
    General Lovell. I would agree with it. The timing of it, I 
don't know, but the content, yes.
    Mr. Chaffetz. Mr. Chairman, the scandal that is here that 
some choose to ignore as a phony scandal is the fact that the 
CIA, the CIA station chief, the military themselves, you have 
the person sitting in front of us who is the head of 
intelligence, he is looking at the intelligence, they come to 
the conclusion that it's Ansar al-Sharia. And then you also 
have the Department of State telling the Libyans that it was 
Ansar al-Sharia. None of them think it's a video. None of them; 
the military, the CIA, the CIA station chief, the State 
Department, all of them. The facts at the time, Mr. Chairman, 
the facts do not point to a video. That only comes from the 
White House.
    What was going on in the room, General? Our people are 
under attack. There are people dying. What is the military 
doing?
    General Lovell. Desperately trying to gain situational 
awareness in an area where we had a dearth of it.
    Mr. Chaffetz. Were they moving to the sound of the guns? 
Were they doing what they were trained to do, or were they 
sitting around waiting for the State Department and Hillary 
Clinton to call them up and say, do something? What did they 
actually do?
    General Lovell. We sent a Predator drone overhead to be 
able to----
    Mr. Chaffetz. Did we do enough, General?
    General Lovell. Sir----
    Mr. Chaffetz. Your professional opinion. You are retired, 
sir. I know you care deeply about this.
    General Lovell. Yes.
    Mr. Chaffetz. What was the mood in the room? What was the 
feeling? Was it to save our people?
    General Lovell. It was desperation there to be able to 
gain----
    Mr. Chaffetz. It was what?
    General Lovell. Desperation there to gain situational 
awareness and to be able to do something to save people's 
lives.
    Mr. Chaffetz. Did they actually do it? Did they actually do 
it? The three actions that we talk about, a FAST team, FAST 
team is not--they're not even trained to go in to engage into a 
fight. The other force they talk about is coming from the 
United States of America. We had assets there in Europe. Did 
they actually go to the sound of the guns? Did they actually go 
into Benghazi?
    General Lovell. No, sir, those assets did not.
    Mr. Chaffetz. Why not?
    General Lovell. Basically there was a lot of looking to the 
State Department for what it was that they wanted, and in the 
deference to the Libyan people and the sense of deference to 
the desires of the State Department in terms of what they would 
like to have.
    Mr. Chaffetz. Did they ever tell you to go save the people 
in Benghazi?
    General Lovell. Not to my knowledge, sir.
    Mr. Chaffetz. We didn't run to the sound of the guns. They 
were issuing press releases. We had Americans dying. We had 
dead people, we had wounded people, and our military didn't try 
to engage in that fight. Would you disagree with that?
    Chairman Issa. The gentleman's time has expired, but the 
gentleman may answer on any of the questions if you didn't 
think you got enough time to answer fully.
    General Lovell. Four individuals died, sir; we obviously 
did not respond in time to get there.
    Mr. Chaffetz. Could we have?
    Chairman Issa. The gentleman's time has expired. Go ahead.
    General Lovell. We may have been able to, but we'll never 
know.
    Mr. Chaffetz. Because we didn't try.
    Chairman Issa. I thank the gentleman.
    We now recognize the gentlelady from the District of 
Columbia Ms. Norton.
    Ms. Norton. Thank you. Thank you very much, Mr. Chairman.
    This hearing is interesting. It seems to be based on the 
notion that there were unintended consequences after the 
intervention into Libya. Let me begin by saying it's the nature 
of the beast, if one is talking about the Mideast, and it's 
interesting to note in contrast that when we intervene in Iraq 
where the consequences were--indeed, where we could have 
prevented by simply letting the monitors on the ground continue 
to look for weapons of mass destruction, we just went in willy-
nilly. We didn't have anything like that in Libya. And, of 
course, in Iraq clearly one of the unintended consequences 
surely would have been renewed conflict between the Sunni and 
Shi'a, and yet we went in head first, perhaps the most 
catastrophic war of the 20th century, invasion by the United 
States of America.
    Well, many of us were very doubtful about Libya, to be 
sure, and many Democrats, frankly, followed our Republican 
colleagues, who argued very forcefully for intervention in 
Libya. Democrats were quite split on it. Senator McCain, who I 
think should be quoted here, he was the Republican standard 
bearer in the last Presidential--or in the Presidential 
election of 2008, and he is a leader on foreign policy. He said 
in 2011, some critics still argue that we should be cautious 
about helping the Libyan opposition, warning that we do not 
know enough about them or that their victory could pave the way 
for an Al Qaeda takeover. Both arguments, he said, were hollow.
    Dr. Gartenstein-Ross, how do you respond to Senator 
McCain's arguments?
    Mr. Gartenstein-Ross. I think that Senator McCain, with 
respect, was incorrect. I think that we did not know enough 
about the rebels at the time, something which was testified to 
contemporaneously by members of the Intelligence Community.
    Ms. Norton. Do we ever know? Do we know enough about them 
now in Syria? I mean, as I said in the beginning, and I agree 
we didn't know enough about them, and even if we did, one 
wonders whether that could have moved us one way or the other 
as we saw this dictator in power.
    Dr. Wehrey, it seems that McCain was saying--Senator McCain 
was saying that if we did not intervene, the war might have 
dragged on even longer, and that Al Qaeda would have been 
strengthened. Now, do you agree that that was a risk?
    Mr. Wehrey. I do agree. I think if the war had dragged on, 
you might have seen sort of the de facto partition of Libya, 
Qadhafi holding on to certain loyalist areas. The country might 
have become a magnet for jihadism. Al Qaeda might have gained 
an even greater foothold.
    Ms. Norton. Were these rebels generally seen as pro-
Western? Why do you think Senator McCain praised them so 
powerfully?
    Mr. Wehrey. Well, because they were. I mean, in my 
interactions with them after the revolution, even Islamists in 
the East were supportive of NATO's help, and they interfaced 
with NATO, and so by and large they remain pro-Western.
    Now, certainly what happens in any opposition is there are 
splinters, and there are fissures, and so you had groups peel 
off that are more radical and have formed links with radical 
groups, but I think he was accurate.
    Ms. Norton. Thank you very much. I yield back.
    Chairman Issa. I thank the gentlelady.
    I would let Members know that there will be a vote on the 
floor at approximately 10:55. We will remain here, taking 
questioning probably for the first 10 or so minutes after they 
call the vote. We will then recess until approximately 10 
minutes after the last vote is called, meaning if you vote 
quickly and head back, you'll be here when I regavel us open 
again.
    We now go to the gentleman from Ohio Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    General, I want to pick up where my colleague Congressman 
Chaffetz was at. You had two statements in your testimony that 
I think are most telling. The first is always move to the sound 
of the guns. That means something to you, doesn't it, General?
    General Lovell. Yes, sir.
    Mr. Jordan. It means something to anyone who has ever worn 
the uniform of our country, doesn't it?
    General Lovell. Yes, sir.
    Mr. Jordan. We take seriously the airmen who have been 
under your command, the soldiers, the sailors, the airmen who 
you've had a chance to be an officer for, you take that 
seriously?
    General Lovell. Yes, sir.
    Mr. Jordan. And you couldn't do that on September 11th 
because you say in your testimony we were, ``waiting for a 
request for assistance from the State Department.'' You 
couldn't react normally, customarily the way the military 
always react; in this situation, you couldn't do what the 
military always does. Is that accurate?
    General Lovell. From my perspective, yes, sir.
    Mr. Jordan. And you've been in the military 33 years, 
deployed all over the planet, all over the world. Has there 
ever been a situation prior to this where you couldn't react in 
the normal, customary way that the military reacts?
    General Lovell. No situation in----
    Mr. Jordan. First time in your 33 years rising to the rank 
of general, first time in your 33 years you couldn't do what 
the military always does, run to the sound of the guns?
    General Lovell. Yes, sir, for me.
    Mr. Jordan. And why was that the case? What had the State 
Department done in your time at African Command; what had they 
done, what was the culture, what was the climate, what had 
happened where you couldn't do what you normally do?
    General Lovell. This was a command that was created to be a 
bit different. It was created to work with an interagency 
environment to ensure that----
    Mr. Jordan. I get that.
    General Lovell. Yes.
    Mr. Jordan. That's in your testimony, too. I get that. But 
what specifically--I mean, we have soldiers down, you have 
people under attack. You knew, as everyone now knows, it was a 
terrorist attack. So when you have soldiers, seamen, airmen 
under attack, you run to the sound of the guns. You couldn't do 
that.
    So what specifically had the State Department done or said 
that prevented you from doing--I don't care about--we know this 
is unique in that it was a little different in the way it was 
set up, but still when that happens, you still react the way 
you're supposed to react, the way the military always reacts, 
and yet you couldn't. What specifically had the State 
Department--what had they done, or what prevented you from 
doing that?
    General Lovell. Well, it's not what they did in that 
particular situation, it's what they didn't do. They didn't 
come forward with stronger requests for action.
    Mr. Jordan. So--and previously in your time dealing with 
Libya, when there was a situation, the State Department said, 
okay, let's do this. Now suddenly they're hesitating and not 
giving you any guidance at all.
    General Lovell. Prior to that our conditioning was, 
obviously, with Odyssey Guard, we were there to support the 
State Department in setting up and establishing the embassy in 
Tripoli. Therefore, the work that was done relative to Libya 
was one where the State Department was in the lead, and we 
worked to support them to achieve the goals of the United 
States.
    Mr. Jordan. Who at the State Department did you and your--
and the officers directly above you, who did you directly 
interface with?
    General Lovell. Well, in varying circumstances, but for me 
I had interactions when I was in Langare, Italy, working with 
Odyssey Guard, would--had talked on occasion with Ambassador 
Cretz.
    Mr. Jordan. Anyone else at the State Department you 
interacted with?
    General Lovell. Well, briefings back at AFRICOM over that 
other summer. Mr. Andrew Shapiro came there as well, he was 
briefed. And then, of course, Ambassador Johnnie Carson, who 
was African Bureau, was very engaged, obviously, in what went 
on.
    Mr. Jordan. And this is the Andrew Shapiro who was senior 
adviser to Secretary of State Clinton, Assistant Secretary of 
State for Political Military Affairs; is that correct?
    General Lovell. That was his role. He was Assistant 
Secretary for, right, Political Military Affairs.
    Mr. Jordan. Currently Andrew Shapiro who is part of Beacon 
Global Strategies, correct?
    General Lovell. That could be where he works, I don't know.
    Mr. Jordan. That's definitely where he works.
    Did the general urge the State Department to take a 
specific action? Did you and/or the general urge the State 
Department to take specific action on the night of September 
11th when you knew a terrorist attack had taken place on our 
people at our facility in Benghazi?
    General Lovell. I can't speak for anyone other than myself. 
That was not my place to encourage them to do that.
    Mr. Jordan. And you don't know if the general urged?
    General Lovell. Oh, I don't know that they urged to take 
action. There was definitely dialogue over what action wanted 
to be taken.
    Mr. Jordan. But the general, just like you, is trained in 
the culture that says when you have seamen, airmen, soldiers 
under attack, you respond, right?
    General Lovell. On location where I was located, it was a 
senior admiral that was in charge there, but General Ham was 
engaged back in D.C.
    Mr. Jordan. I understand.
    General Lovell. Yes.
    Mr. Jordan. Thank you, chairman. I yield back.
    Chairman Issa. I thank the gentleman. If I could have just 
10 seconds.
    You mentioned Mr. Shapiro and the engagement. Was Libya 
different in State Department interface with AFRICOM than the 
rest of Africa, and if so, how?
    General Lovell. This was the--other than the--the answer is 
yes, it was different, and it was different because our other 
engagements where we were engaged militarily, where there was 
obviously--we were supporting the military strategy, the policy 
of the United States, we obviously worked with a CT-type focus, 
counterterrorism focus. This was the first activity that did 
not start out as a counterterrorism effort that employed 
military combat power for Africa Command since it had stood up.
    Chairman Issa. Thank you.
    Mr. Lynch, are you next or Ms. Duckworth?
    The gentlelady is recognized.
    Ms. Duckworth. Thank you, Mr. Chairman. Thank you to Mr. 
Lynch as well.
    Given the atrocities that Qadhafi committed, it's no 
question that the people of Libya are much better off without 
him. However, after 42 years of authoritarian rule, we have a 
pretty delicate transition to a democracy.
    Dr. Wehrey, you testified previously that overwhelmingly 
the country's political leaders are rejecting violence for 
political means, and that they're committed to some sort of a 
democratic path forward, and that they welcome greater 
cooperation with the U.S. Can you explain in more detail what 
their willingness is, or how that willingness to cooperate with 
the U.S. is manifesting itself, and what can we do?
    Mr. Wehrey. Well, again, I think it's really significant 
that a lot of--some Islamists who at one time were foes of the 
United States, the Libyan Islamic Fighting Group, these leaders 
are now in the Parliament, they're in ministries, they're 
meeting with United States diplomats, they're meeting with our 
Ambassador there, and, again, it goes back to the tremendous 
goodwill that stems from our intervention there. And I think 
they look at the areas where we can help as applying our own 
expertise in democracy, how do you run a Parliament.
    You have to remember, and I was in Libya under Qadhafi, it 
was an Orwellian state where people had absolutely no role in 
their own self-governance. They had absolutely no experience at 
things that you and I take for granted at the very basic local 
level, so it's all very new to them. So what they're doing is 
having to learn to scratch. They're sending delegations to 
other countries to learn how do you run a town council, how do 
you--what are some structures for federalism, how do you 
oversee a budget, just basic things, and I think the U.S. has 
an important role to play.
    As I mentioned, there's a tremendous need for security, and 
they are--you know, the former Prime Minister Zeidan came to 
the United States and asked for U.S. help in training the new 
Libyan Army. The United States has stepped up to that request 
along with Turkey, Britain, Italy, and Morocco, so we are 
helping and are prepared to help in that respect.
    But, again, I would also say engaging with the people of 
Libya, when I talk to the U.S. diplomats, they tell me that 
Libyan society is tremendously vibrant, there's an educated 
class, there's young people, there's a thirst for openness. 
We're training their media. We're reaching out to youth groups, 
to women. And I think these are all incredibly, you know, 
valuable areas. And, yes, the country does have a terrorism 
problem, but I urge policymakers to not be consumed by that 
terrorist problem and not let that be the only lens through 
which we view this country.
    Ms. Duckworth. Can you speak about their police forces? You 
said needing help to train their military. Are they asking for 
help to train their police forces as well from the U.S. or any 
other allies?
    Mr. Wehrey. Other allies. I believe that much of this 
training is already going on in places like Italy. The Italians 
are involved, the Jordanians, the Turks. So many countries are 
stepping up and training their police, and this training, 
again, is happening overseas at other countries for security 
reasons.
    Ms. Duckworth. Are there additional risks to consider as we 
support Libya's effort towards its transition? For example, are 
there risks from a program for demobilization, disarmament and 
reintegration of the militia members? You talked about 
combating terrorism. You know, as the United States helps Libya 
move forward, I also want to make sure that we minimize risks 
to our Nation and to our citizens as well, so are there any 
risks that we should be sort of keeping an eye on as we try to 
help them move forward?
    Mr. Wehrey. Well, absolutely. I think when we train the new 
Libyan security forces, we want to make sure we're doing a 
thorough vetting of these individuals to make sure we're not 
imparting training and equipment to bad actors. I mean, we do 
this in our security engagement elsewhere in a number of 
states, and there's always risks involved. And as I understand 
it, you know, AFRICOM, they're asking the tough questions; 
okay, we're going to step in and help train this force, but 
what are the unintended consequences down the road?
    We don't want to create a military that steps in and 
subverts the democratic process in this country, that, you 
know, becomes more authoritarian or goes back to the old ways 
of Qadhafi. I think that's a risk.
    I think border control is a huge area that we need to focus 
on. The European Union is heavily involved in this. I think the 
United States needs to, I think, push the Europeans to take on 
more of the burden. Much of their security is directly impacted 
by what happens in Libya.
    Ms. Duckworth. Thank you very much. I yield back, Mr. 
Chairman.
    Chairman Issa. I thank the gentlelady.
    We now go to the gentleman from Michigan Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman.
    And General Lovell, I thank you for your service, and I 
thank you for your willingness and desire to be here.
    General Lovell. You're welcome, sir.
    Mr. Walberg. I recognize the fact that you led as a 
commander, but you were under command as well, and the 
frustrations of being under command at times and in this 
situation appear to be very evident, but I appreciate you being 
here. You mention in your written testimony that AFRICOM's 
ability to mobilize and supply combat power with, ``limited 
boots on the ground, and in the implied time frame, was 
commendable.'' What do you mean by ``the implied time frame''?
    General Lovell. The United States was acting under Odyssey 
Dawn and then was supporting under the U.N. resolution. So in 
working through the compressed time frame prior to OUP taking 
place, the United States was acting with allied partners, and 
then a more focused NATO-plus effort, if you will, with OUP. So 
there was a definite desire to get done what we could get done 
prior to that and then moving forward.
    Also there is so much you can do without boots on the 
ground. Obviously I wasn't in an operational role at that time, 
but just military knowledge tells you you need boots on the 
ground to hold and make changes, much as the rest of the panel 
has discussed here today.
    Mr. Walberg. So the effectiveness, could you elaborate, of 
this policy?
    General Lovell. Of a ``no boots on ground policy,'' sir?
    Mr. Walberg. Yes, yes, sir.
    General Lovell. Well, you can effect from the sea, you can 
effect from the air, but you hold and have lasting change by 
being present on the ground. In a situation where you need more 
than, say, diplomacy or economic influence, and the military is 
called in, that's serious business, and the change takes place 
on the ground.
    Mr. Walberg. So am I to understand, then, that the 
effectiveness was compromised, that it wasn't complete, that it 
wasn't as full as possible, that it wasn't satisfactory without 
having this boots on the ground available to you?
    General Lovell. I would characterize it as you would 
obviously have had a different outcome and effect had you had 
boots on the ground than you had without it.
    Mr. Walberg. Without it.
    When did AFRICOM start becoming aware of political turmoil 
in Libya?
    General Lovell. Well, Libya was a country that we watched, 
as we watched all of the--I'm speaking from a J2 perspective, 
we kept tabs on all of the countries there. In the Arab Spring 
we knew especially that there could be other effects going 
across that area. There were really things that we watched that 
were CT oriented, and then other things that we watched that 
were more broadly politically affecting, and that began to 
happen.
    Mr. Walberg. When you began monitoring it, when was that?
    General Lovell. That would be in the early 2000--2011 time 
frame.
    Mr. Walberg. Did AFRICOM have any role in the 
decisionmaking process to intervene in Libya, and what type of 
role?
    General Lovell. I'm sorry, sir, would you please repeat?
    Mr. Walberg. Did AFRICOM have any role in the 
decisionmaking process, direct decisionmaking process, to 
intervene into Libya, and what was that role?
    General Lovell. That would be more at the commander's--the 
combatant commander's level than my own. I wouldn't have that 
information.
    Mr. Walberg. What was AFRICOM's role during Odyssey Dawn?
    General Lovell. Their role is to work with other allied 
partners prior to the U.N. resolution taking effect to assist 
the rebels in Libya.
    Mr. Walberg. What about Unified Protector?
    General Lovell. That was a more broad effort sanctioned by 
the United Nations to assist the rebels in Libya.
    Mr. Walberg. Dr. Gartenstein-Ross, some have praised the 
NATO intervention as a model intervention, but your testimony 
points to consequences of the intervention. What are some of 
the most pronounced consequences of this Libyan intervention?
    Mr. Gartenstein-Ross. The largest consequence is what 
happened in north Mali. There's----
    Mr. Walberg. Well, excuse me----
    Chairman Issa. The gentleman's time has expired. You can 
finish your answer.
    Mr. Gartenstein-Ross. The largest consequence is what 
happened in north Mali. A direct line can be drawn between the 
intervention in NATO and the Jihadist takeover of north Mali, 
something that became an issue in the 2012 campaign both 
because the Tuareg separatist groups, who are not themselves 
Jihadists, lost a major sponsor in Qadhafi, and Jihadists were 
able to exploit that; but also because the returning Tuareg 
mercenaries who fought for Qadhafi both pillaged his armories 
and came back heavily armed.
    There are other consequences that can be felt with the flow 
of arms throughout the region going to places like Egypt, 
Algeria, and Tunisia. Lives have been directly lost there, and 
one thing that we can see that happened in January of this year 
is the shoot-down of an Egyptian military helicopter. We don't 
know for sure where those arms came from, but both the U.N. 
panel of experts which looks at the diffusion of Libyan arms 
and also contemporaneous media accounts believe that Qadhafi's 
armories are the most likely place that militants were able to 
get this weaponry to shoot down the helicopter. I think that 
when you look at the unintended consequences, it has made the 
region much less stable.
    Mr. Walberg. Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    The gentleman from Nevada.
    Mr. Horsford. Thank you, Mr. Chairman.
    Thank you to our witnesses who are here today to testify 
before this committee. And it's important to recognize that 
before us today is a panel of experts for whom we as a 
committee can gather critically important information and 
advice as well as insight into the on-the-ground and 
geopolitical realities in Libya and the greater Middle East 
region.
    The tragedy that occurred in Benghazi is that, a tragedy, 
and out of respect for those who died serving our country, and 
for the safety of those who continue to do so around the world, 
it's imperative that this committee gain actionable policy 
reforms so that we can prevent similar disasters from occurring 
again.
    So I want to ask the panel, and I'll start with Dr. Wehrey, 
in your testimony you discussed at length the challenges that 
outside assistance, including from countries like the United 
States, Turkey, Britain, Morocco, and Italy, face in terms of 
providing training assistance in the developing--development of 
an effective Libyan Army. Can you elaborate in what your 
recommendations to this committee would be?
    Mr. Wehrey. Well, again, I think I would recognize that 
before this training can really take effect, or before you can 
build a real security sector, you have to have political 
reconciliation in this country. The Libyans have to get 
together and hammer out a broad pact, there has to be 
democratic structures in place, they have to go forward with 
this national dialogue.
    Much of the paralysis and why outside assistance has not 
had an effect is because there hasn't been this reconciliation 
among these factions. So I would really urge outsiders to focus 
on sequencing; that we need to support the Libyans in these 
political issues, in reforming their parliaments, in the 
national dialogue, in the Constitution so that this training 
can take full effect.
    Now, it's sort of, you know, the horse before the wagon. I 
mean, there has to be security in the country for these 
institutions to function. So we do have to help them to a 
certain degree create the space for these institutions. But, 
again, I think the United States since at least last year has 
recognized that this country needs greater help. When I speak 
to people in the Defense Department, in AFRICOM, there's a 
willingness and appreciation for the situation. NATO is 
engaged, there are other Arab countries, Europe. So the 
willingness is there.
    Mr. Horsford. Thank you.
    General or the other panelists, would you propose specific 
actionable reforms that this committee could recommend?
    Ms. Schake. In addition to what Dr. Wehrey said, all of 
which I agree with, there are several other specific things we 
could do. One of the United States' great strengths in helping 
transitioning countries is to emphasize how federalism works in 
the United States not just politically, but also militarily. 
The balance of the National Guard and Reservists and their 
functions in the States is for Libya, in my judgment, a very 
useful model because their political reconciliation is not 
going to progress without a more activist federalism that makes 
the regions of the country and the tribes of the country feel 
more politically secure than they now feel, and you're not 
going to get disarmament of the militia until then. So I would 
put a lot of focus on that.
    Second, we need to be a much more vibrant voice talking 
about how the violence damaged the elections, how much it 
matters that only 15 percent of the Libyan people were 
represented in the 48 people elected for the Constitutional 
Council. We need to create political attention to this, and 
that will help them to the political reconciliation they need 
to make.
    It's not enough for us to say--and I don't think Dr. Wehrey 
was doing this, but some people do say nothing can be done 
because the Libyans themselves need to make progress. They 
won't make progress without us helping them have the security 
to make brave domestic political choices, and we're 
underinvesting in that.
    Mr. Horsford. Anyone else, last 17 seconds?
    Mr. Gartenstein-Ross. One specific reform that I would 
recommend is that while the Libyan Islamic Fighting Group which 
Dr. Wehrey referred to did issue revisions breaking from Al 
Qaeda, I think that it's important for the U.S. to be aware of 
whether some figures within government are also helping 
Jihadist groups. One thing that I think we learned from our 
experience in Egypt is that that can be very damaging.
    One figure in particular I would draw attention to is Abdul 
Hakim Belhadj, former Libyan Islamic Fighting Group member, 
whose media adviser had been a member of the Global Islamic 
Media Forum, which is a Jihadist forum. Online Jihadist 
celebrated his advances within government, and according to 
regional media, he's been providing shelter to Abu Iyad al-
Tunisi, who is the emir of Ansar al-Sharia, a Jihadist group in 
that country, so even while we help Libya, I think it's also 
good to be aware of and to bring political pressure down on 
those who are supporting America's enemies.
    Mr. Horsford. Thank you.
    Mr. Lankford. [Presiding.] Thank you all.
    Let me walk through a couple things, and I'll be the final 
questioner, and then we'll take a short recess after this for 
the votes, and then come back and be able to finish up. So let 
me walk through about 5 minutes or so of some brief questions.
    General Lovell, thank you for your service and for all of 
you in your service and your research and everything. I want to 
be able to ask just a couple of quick questions.
    Based on what you were watching that night, do you feel 
like the United States was doing everything it could do to 
protect the people, its facilities abroad--that the United 
States was doing everything it could do to protect our people 
and our facilities abroad based on what you saw that night?
    General Lovell. No, sir.
    Mr. Lankford. Do you believe that night, and even during 
that night did you believe, that this was a protest rooted in 
an Internet video?
    General Lovell. No, sir.
    Mr. Lankford. Did you have any sort of sense that night 
based on what you were hearing, the communication between State 
and DOD and what was happening on the ground trying to gather 
information, that there was a steadiness and a strength through 
that evening in trying to make the decisions?
    General Lovell. There was a bit of--there was definitely a 
strong desire to come to decisions. There was a period of time 
where gaining an understanding of what was needed from folks on 
the ground because we didn't have a lot of insight----
    Mr. Lankford. So was there ongoing communication and 
coordination? Were you spending time waiting on the State 
Department to try to get your information?
    General Lovell. There was a lot of back and forth, yes, 
sir.
    Mr. Lankford. No question for that, but do you feel like 
there were clear lines of communication and steadiness of 
leadership that was happening that night, so there was a 
consistent here's who is in the lead, here's what we're going 
to do, and a plan that was unfolding?
    General Lovell. It was continually strived for in that 
room. We were looking back to the United States for more.
    Mr. Lankford. Were you getting it from the United States? 
In the room they were planning and strategizing, were you 
getting clear communication and leadership from Washington, 
from the United States on what to do next?
    General Lovell. My observations were that they were still 
looking for more decisions.
    Mr. Lankford. Does anyone know if we brought the people to 
justice that did this in our embassy and our facilities? Is 
anyone aware if justice has been carried out?
    Mr. Gartenstein-Ross. We have not.
    General Lovell. No, sir.
    Mr. Lankford. So the four things that I just walked through 
were the four talking points that were presented by Ben Rhodes 
saying these were the areas we're going to talk about when we 
go on the Sunday shows. All four of those things we knew in the 
initial days are not true, and we are still waiting for this 
statement that came out from the beginning--we will take these 
individuals to justice--2 years later. So the four things the 
White House put out, three of them are factually not true, and 
one of them was a promise that is still unkept.
    What were you tracking that evening? Were you watching 
video? Were you tracking phone calls? How were you gathering 
information through the course of the evening?
    General Lovell. Obviously there were national means being 
used to gain intelligence. There were the actual communiqus 
that we received either directly or indirectly from individuals 
that were on the ground.
    Mr. Lankford. So you're talking about the email traffic and 
such of when they were trying to email out and get information.
    General Lovell. They work through Chat, yes, sir.
    Mr. Lankford. Correct.
    General Lovell. And then the analysts work through Chat, 
and then in addition to that, the operational channels do the 
same thing. We also had a Pred feed at a certain point in time. 
We were able to swing a bird over there and then relieve that 
and gain more. That was an unmanned UAV or--unmanned.
    Mr. Lankford. Then there's phone conversations happening at 
different points where the individuals on the ground are in 
phone communication with other individuals. Were you getting 
any information about that as well?
    General Lovell. We knew that the--we would have information 
filtered back to us, yes, that people on the ground were back 
in communication.
    Mr. Lankford. Were you aware there was closed-circuit TV 
that was also on the compound itself, video feed?
    General Lovell. No, sir, I wasn't aware of that.
    Mr. Lankford. Okay. There is video feed of that night 
that's fairly extensive, both leading up to the event that you 
can actually look down the street and see that there's no 
protest going on on the street, and you can actually see the 
actions on the compound and be able to go through that. So that 
video obviously you didn't have a feed to, weren't able to 
track, but that closed-circuit TV does exist as well as the 
Predator feed that you're dealing with as well. So all this 
information is gathering and trying to walk through this, and 
you're trying to make decisions, and you're in the process of 
all these decisions being made and trying to gather all this 
information and be able to give advice to what was going to 
happen.
    Did you get from State--or let me say it this way: Did you 
know who from State would call you if they wanted you to take 
action? Was there a clear line of communication; okay, the 
military is getting into a position of readiness, who are you 
waiting for from State to call you?
    General Lovell. We--those calls would go back through the 
operational chain of command, so those people that were engaged 
were back in Washington, D.C. General Ham was dealing with that 
as well as Admiral Leidig.
    Mr. Lankford. So there was a clear line of communication; 
you knew who would make the call and where that would come from 
as far as that is concerned?
    General Lovell. Those gentlemen would be in contact with 
people, we would hear back at that command center from--at my 
level from a military authority to do something.
    Mr. Lankford. Okay. Did we have Americans' back that night?
    General Lovell. Sir?
    Mr. Lankford. The United States military always watches for 
other Americans and their back. Did we have their back that 
night?
    General Lovell. Obviously not, sir.
    Mr. Lankford. Based on the situation in Libya now or 2 
years ago, would you consider the security situation normal for 
one of our facilities? Was this a normal security situation? 
Prior--obviously when the attack is going on, that's not 
normal. Prior to that attack, was this a normal environment for 
our personnel?
    General Lovell. No, sir.
    Mr. Lankford. Does anyone else have a comment on that? Was 
this a normal security environment?
    Mr. Gartenstein-Ross. It was not a normal security 
environment.
    Mr. Lankford. I've heard over and over again from the State 
Department there was a push to normalize security and actually 
withdraw individuals that were our own, that were Americans, to 
provide security and to put in country security folks, which is 
typical for us, that we have a larger force in our embassies 
and facilities that are provided from in country. We had a 
militia watching our front door from Libya. So the front door 
of the facility, a local militia was actually providing the 
security for it.
    Just a quick question for anyone. If you went to Libya 
right now, would you be okay if one of the local militias 
guarded your front door? Would anyone be open to that?
    Mr. Wehrey. With all due respect, that's the way security 
is functioning in this country, and I think----
    Mr. Lankford. No, I understand.
    Mr. Wehrey. Yes, but----
    Mr. Lankford. Was it a normal security environment that we 
would run it with one of the local militias? I understand local 
security is typically provided in Libya. At that point were we 
in a normal environment that we would have one of the local 
militias, would you trust their loyalty at that time to provide 
your security for your front door?
    Mr. Wehrey. As a matter of embassy protocol, I would make 
sure that they were vetted; I mean, that they're loyal. But, I 
mean, this is the nature of Libya right now. These militias 
consider themselves the army. There is no army.
    Mr. Lankford. Did you vet the militia at that time based on 
where we were----
    Mr. Wehrey. I don't know. I wasn't there. But, I mean----
    Mr. Lankford. Just your guess.
    Mr. Wehrey. I mean, this is the challenge that we have in 
this country is, you know, there is--as I mentioned, there was 
no central army.
    Mr. Lankford. Correct. So you would assume if there is no 
central army, then we're not going to try to normalize the 
security situation. It's not normal. The British have already 
been run out based on an attack on their facility. The Red 
Cross has already been run out based on an attack on their 
facility. Instead, we reduce the number of gun toters, American 
gun toters, and increase local militia that we can't vet.
    Mr. Wehrey. From an embassy standpoint it is highly, I 
would say, risky. I am saying from my own perspective traveling 
to Libya, you can go and feel relatively safe, because these 
militias, as Dr. Schake mentioned, they do provide a sort of 
neighborhood watch program. Many of them are filling the void 
of the security forces. So I think we need to look at how we 
use the term ``militia'' very carefully, because these are the 
groups that are for all intents and purposes the security 
forces in the country.
    Mr. Lankford. Right. But 2 years ago it was not normal in a 
situation. It was as dramatic or more dramatic than it is now 
and insecure, no way to be able to vet people, unknown on that, 
and yet we reduced the number of American folks that are 
providing security and increased local folks that we did not 
know how to vet. They were watching our front door, and it's 
now clear they walked away from the front door, and we had 
Ansar al-Sharia walk through the front door that they walked 
away from, and the attack was on.
    So with that, let me take a recess. We're going to move 
towards votes, and then we will be able to come back and be 
able to visit again. So we'll stand in recess until the call of 
the chair.
    [Recess.]
    Chairman Issa. [Presiding.] The committee will come to 
order.
    We now recognize the distinguished gentleman from Arizona. 
No, I'm sorry, the distinguished other doctor, the gentleman 
from Tennessee, Mr. DesJarlais.
    Mr. DesJarlais. Thank you, Mr. Chairman, and I thank the 
panel for being here for this very important hearing.
    And, General Lovell, special kudos to you. I know you're 
exceptionally well trained because you were commissioned in our 
great State of Tennessee.
    I wanted to talk to you a little bit about the DOD timeline 
of Benghazi-related events. It says it wasn't until 6:05 a.m. 
that AFRICOM ordered a C-17 in Germany to prepare to deploy to 
Libya to evacuate the Americans wounded in the attack; and 
furthermore, the timeline says it wasn't until 2:15 p.m., over 
8 hours later, that the plane took off from Germany for Libya. 
Can you explain why that took so long?
    General Lovell. No, sir, I cannot.
    Mr. DesJarlais. General, are you familiar with the term 
``the golden hour?''
    General Lovell. Yes, sir, I am.
    Mr. DesJarlais. Can you tell us what that means to military 
personnel who have been wounded?
    General Lovell. Yes, sir. The golden hour is absolutely the 
period of time from when you're wounded in an engagement or 
accident and you receive medical treatment. The golden hour, 
the greatest ability for you or a buddy to survive is during 
that period of time.
    Mr. DesJarlais. And if I'm correct, the survival rate, if 
they do not die on the battlefield, the chance of survival is 
about 95 percent if they're reached within that golden hour?
    General Lovell. That's why it's the golden hour, yes, sir.
    Mr. DesJarlais. In this case it looks like they were 
functioning under maybe what would be called the golden day by 
this timeline?
    General Lovell. You could characterize it that way, sir.
    Mr. DesJarlais. Okay. Were there, indeed, assets in the 
region that could have been deployed sooner, in your opinion?
    General Lovell. Again, those are--in the operational area, 
looking back at it reflectively, there were assets in the area, 
but, you know, operations responded the way they did. My 
contention is that we need more dedicated assets available to 
the command continuously in order to make a difference in the 
future.
    Mr. DesJarlais. In your opinion, if you were given the 
green light to pick up the phone and make the call to get 
someone there to help our bleeding Americans, how long would it 
have taken? Having that opportunity to just make the call, how 
quickly could someone have gotten there, in your opinion?
    General Lovell. With the assets available, I don't have an 
answer to that question, sir, in the operational environment. I 
don't know.
    Mr. DesJarlais. Do you believe it's much quicker than it 
was?
    General Lovell. Oh, I would certainly hope it would be much 
quicker than it was, yes.
    Mr. DesJarlais. So one thing our soldiers, we talked about 
this earlier in today's hearing, you're taught to run towards 
the gun, all the military people that I know want to run 
towards danger, not away from it, but they were not able to do 
so. Why was that?
    General Lovell. The--within the authorities to move, given 
the desire to move, it appeared to me from my perspective 
working there as a staff member of the J2 in there that there 
were dialogues ensuing with the State Department as to how they 
wanted to have it approached within Libya as to whether 
deference to State or deference to Libya.
    Mr. DesJarlais. I know General Ham was in Washington that 
night, which left his deputy commander as the senior-most 
officer at AFRICOM. Was he consulting with the State Department 
about what he should do in response to the attack in Benghazi?
    General Lovell. From my observations sitting in that room 
with him when I saw it there, he was absolutely leaning forward 
to get answers so he could do something, yes.
    Mr. DesJarlais. So, in your opinion, what was the hold-up? 
You testified earlier that the CIA knew, the military knew, the 
State Department knew that this was a terrorist attack, yet 
somebody was holding this process back. Who was it?
    General Lovell. I wish I knew, sir. From my perspective, it 
appeared that State Department was the conduit for the ask by 
the Africa Command.
    Mr. DesJarlais. So I can say this, you might not be able 
to, but as an American and you as now a civilian, having 
bravely served our country for 33 years, the fact is that there 
was a Presidential election just a few weeks away, and there 
was a White House that knew all the same things these agencies 
knew, but yet they were busy concocting a story, a cover-up, an 
alibi, that we all know now isn't true because they were more 
concerned about protecting their image in a Presidential 
election than saving American lives. The IRS targeting to 
effect the outcome of an election is criminal. This is just 
sickening. And I'm sure that you're here today partly because 
you have similar feelings. Not to speak for you, but you're 
welcome to respond.
    General Lovell. I will say that I'm here today because as a 
military professional for over 33 years, as well as a citizen 
of this country, a father of a previously serving military 
person, father-in-law of serving military people, neighbor to a 
young man down at Parris Island going through basic training in 
the Marine Corps, and just having served, as I said earlier, 
with a number of brave men and women in uniform and in civilian 
clothes in this Nation, we need to get this right. We need to 
get it right. That's what brings me here today. Not that I have 
all the answers, I don't say that I do, but attention needs to 
be paid in the most serious way possible to cut through any 
games and get to the point that we as a Nation are able to 
support through our military forces the policy and efforts of 
this country anywhere in the world, and we need to be able to 
do it and secure American lives as we get the job done.
    Mr. DesJarlais. Thank you for that.
    Chairman Issa. Ms. Schake, it looked like you wanted to 
answer. The gentleman's time has expired, but if you need to 
answer, you may.
    Ms. Schake. I didn't want to answer, but I did want to 
endorse the doctor's suggestion that there was information 
available from the CIS station chief in Libya, from the deputy 
chief of mission in Libya, from elsewhere in the Central 
Intelligence Agency, as your committee's investigations have 
brought out.
    The White House made a political choice that the President 
was running for reelection, campaigning on the basis that Al 
Qaeda was on the run and the tide of war was receding, and the 
tragedy in Benghazi was an extraordinarily inconvenient outlier 
to that story line, and I think that's the basis on which the 
White House--the choices that people made during the attacks in 
Benghazi, in my judgment, are unfortunate and had tragic 
consequences, but the choices the White House made about 
pretending that we didn't know things that we did know I think 
are an overt politicization of the events.
    Chairman Issa. Thank you.
    The gentleman from South Carolina, Mr. Gowdy. You're next 
on my hit parade, I think.
    Mr. Gowdy. I am, your--Mr. Chairman?
    Chairman Issa. Yes.
    Mr. Gowdy. I started to say Your Honor. That was a previous 
job.
    Chairman Issa. Yeah. No, I still get a gavel, but you're 
shown as next.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Chairman and General, I am confounded, in fact I 
continue to be confounded, and what I find so confounding is 
the administration's mantra hasn't changed from Jay Carney to 
Hillary Clinton, to the President himself, to Ben Rhodes, to 
even yesterday Bernadette Meehan, the National Security 
Council. And maybe, Mr. Chairman, instead of teaching reading 
comprehension, maybe we ought to teach writing comprehension, 
because I don't understand what this statement means except the 
end of it: The content reflects what the administration was 
saying at the time--whatever that means--and what we understood 
to be the facts at the time.
    So that's the mantra, Mr. Chairman and General, is that we 
used the best evidence we had at the time, the facts that we 
had at the time. So you can imagine, General, that that would 
make someone who is interested in facts and evidence to say, 
okay, well, then, cite all the facts for me. Cite the evidence. 
If your mantra really is that we used the best facts and the 
best evidence we had at the time, then cite the facts for me. 
Call your first witness. Introduce your first piece of 
evidence. Because I'll tell you the first piece of evidence I 
would introduce is from the State Department. Beth Jones to 
Cheryl Mills, Mr. Chairman--you know who Cheryl Mills is--Jake 
Sullivan. This is September the 12th, Mr. Chairman. This is 
well before the administration started misleading the American 
people. We've got an email from Beth Jones to Cheryl Mills and 
Jake Sullivan and a plethora of other people: I told him, with 
``him'' being the Libyan Ambassador, the group that conducted 
the attacks, Ansar al-Sharia, is affiliated with Islamic 
extremists. So that's the State Department that knew the day 
after that this video had nothing to do with the attack in 
Benghazi. So that's the State Department.
    CIA station chief in Tripoli, Mr. Chairman, not--and for 
those who don't know what that word means, he repeated it 
again--not not an escalation of protest. This is someone in 
Libya at the time. CIA says video had nothing to do with it.
    Mr. Gowdy. Now we go to DOD, military. What evidence did 
you have that this was an escalation of a protest rooted in 
spontaneity that got out of control and resulted in the murder 
of our four fellow Americans? Did the military have any 
evidence supporting the video narrative?
    General Lovell. No, sir, there was none.
    Mr. Gowdy. Well, that's what's so confounding, Mr. 
Chairman, is the State Department knew it wasn't a video, the 
CIA knew it wasn't a video, and for those that are a little bit 
slow, they repeated the word ``not'' twice. The military knew 
it had nothing to do with a video. But that brings us to the 
White House. And I know, Mr. Chairman, initially we were told 
that the White House had nothing to do with the drafting 
points, that Mike Morell is the one who sanitized those and 
changed the word terrorist to extremist and changed it from 
attack to demonstration and did whatever he could to cast the 
administration in the most favorable light. We thought that it 
was just Mr. Morell doing that, until we got an email from Ben 
Rhodes, Mr. Chairman.
    Goal number one: to convey that the United States is doing 
everything we can to protect our people and facilities. I'm 
glad that this is dated September 14, 2012, Mr. Chairman, 
because it sure as hell was not their goal before September 11. 
We have had hearing after hearing about the failure to provide 
security at our facility in Benghazi. So I'm glad that that was 
their goal after four of our fellow Americans were murdered, 
but it sure as hell was not their goal beforehand or they would 
not have refused to provide security to that facility.
    Goal number two: to underscore that these protests are 
rooted in an Internet video and not a broader failure of 
policy. And therein we have our answer. The goal was to do 
everything we can to deflect attention away from this feckless 
foreign policy we have in the Middle East that isn't working. 
Remember the mantra, Mr. Chairman--Al Qaeda is on the run, GM 
is alive, Osama bin Laden is dead, Al Qaeda is on the run--when 
really they're standing at the front door of our facility in 
Benghazi getting ready to murder our Ambassador and burn it 
down.
    And then yesterday, Mr. Chairman, you may remember the 
White House--I'm going to edit out all the stumbling and 
stammering that Jay Carney did, I'm just going to give you the 
nuts and bolts of what he said--is that this memo I just made 
reference to has nothing to do with Benghazi.
    Well, I find that interesting because of the third point, 
and I know I'm out of time, Mr. Chairman, but the third goal 
was to show that we are resolute in bringing people who harm 
Americans to justice. If that's not talking about Benghazi, 
where else did we have people harmed other than Benghazi, Mr. 
Chairman?
    Chairman Issa. I thank the gentleman. And our goal is to 
bring people to justice, too.
    We now recognize the gentleman from Texas for 5 minutes.
    Mr. Farenthold. Thank you very much, Mr. Chairman.
    And, General, I appreciate your service. Thank you for your 
service. Appreciate your being here today.
    In your testimony you talked about your training and 
natural impulse as a member of the American military is to run 
towards the gunfire. And we have heard testimony today about 
what we should have done, and we're kind of unclear about what 
we could have done and whether or not we had the forces that 
could have gotten there in time. I'm going to say we definitely 
should have tried.
    But as an American citizen, I'm not asking you to give away 
any secrets, as an American citizen, does it trouble you that 
we can't respond in a timely manner to threats to an American 
Embassy anywhere in the world.
    General Lovell. That's part of the reason I sit here today, 
sir.
    Mr. Farenthold. Thank you very much. I think it's something 
we should all be concerned about.
    Let's talk a little bit about your role the evening of the 
Benghazi attacks. You talk about you fight your way to the 
train, and the brave men and women in Libya did in running 
toward the sound of the guns. You also say that outside of 
Libya there were discussions going on about how to respond to 
the attack and that these folks also fought the way they were 
trained. Are you referring to the AFRICOM headquarters with 
that comment?
    General Lovell. AFRICOM headquarters----
    Mr. Farenthold. Right.
    General Lovell. --and interagency interactions.
    Mr. Farenthold. All right. So you wrote, ``The 
predisposition to interagency influences had the military 
structure--in the spirit of expeditionary government support--
waiting for a request for assistance from the State 
Department.'' That kind of sounds like bureaucratese of saying 
that the military that night was not its own master as far as 
taking steps to go to the rescue of the Americans in Benghazi 
but were waiting for directions from the State Department. 
Would that be a fair assessment?
    General Lovell. That characterization is part of what's in 
that comment, yes.
    Mr. Farenthold. That just seems crazy. We have got 
Americans who need help. You ought to be able to hop on an 
airplane, and they could have been ordered to stand down if the 
situation warranted that. I know General Ham was in Washington 
that night and left his deputy commander as the senior most 
officer at AFRICOM. Was he consulting the State Department 
about what to do during the attacks at Benghazi?
    General Lovell. The Admiral worked tirelessly to do that.
    Mr. Farenthold. Obviously, we didn't have much of a 
response there.
    Let me go to Ms. Schake. I apologize if I mispronounced 
your name. In your testimony you talked about in the Arab 
spring how we should be focusing on helping these countries 
out. You look at the track record that we have under the Obama 
administration with nation building. You look at Iraq. A lot of 
blood, a lot of treasure shed in Iraq. Yet we see Al Qaeda 
flags flying in Fallujah. We have seen instability all 
throughout that region. You look at the civil war going on in 
Syria. Obviously, I mean, it's hard to tell the good guys from 
the bad guys without a playbook, but we draw a red line and 
step back from it.
    We can even go over into Crimea and see some problems. Are 
we sure we really want to be involved in that based on our 
track record there?
    Ms. Schake. I share your skepticism about the 
administration's choices in the Middle East. It does seem to me 
that one of the fundamental mistakes the Obama administration 
is making is they act as though taking action is something that 
sets in motion all sorts of consequences, but that taking no 
action means we have no moral responsibility for any 
consequences. And as I think Daveed's testimony made really 
clear, there are consequences for what we have not done in 
Libya, and Mali is bearing them out at the moment, Libya is 
bearing them out at the moment. And the gap between what the 
administration claims it is achieving and what we are actually 
doing in the region is encouraging people to take----
    Mr. Farenthold. I'm almost out of time, and I had one more 
question for General Lovell.
    The U.S. intervention in Libya was constrained by the White 
House's strict prohibition of boots on the ground. Do you think 
that limited boots on the ground and that policy might have 
been one of the driving forces in the fact that we didn't send 
a response there to Benghazi?
    General Lovell. Well, I would say if there were boots on 
ground and there were marines in uniform as part of a security 
team that were around any of the State Department facilities, I 
would say that would intimidate most that were going to try to 
make an attack. And boots on the ground are the best and only 
way to hold the ground, if that's what you're looking to do.
    Mr. Farenthold. Thank you very much.
    I just want to point out quickly before I yield back, Mr. 
Chairman, that as we investigated embassy security together, 
some of the key factors that are considerations are the 
willingness and ability of the host country to provide 
security. And I think that's a common understanding at the 
State Department. At a time a government is undergoing change 
both the ability and willingness to provide security for 
embassies should be severely in question, and that should be an 
indication to immediately prepare to take care of ourselves. 
And maybe we could have avoided the loss of life in Benghazi 
had we followed our own directives in evaluating the ability 
and willingness of the host country.
    Chairman Issa. I thank the gentleman for his comments.
    We now go to the gentleman from Arizona, Dr. Gosar.
    Mr. Gosar. Thank you very much, Mr. Chairman.
    General Lovell, now, you were the deputy commander of 
Operation Odyssey Guard, which you describe as the missions to 
help the State Department reestablish the Embassy in Tripoli, 
Libya. Can you describe what the mission involved?
    General Lovell. Yes. The mission involved being supporting 
to the desires of the Ambassador, Ambassador Cretz, and there 
was a 16-person DOD team that was in place working directly for 
him. Our job was to help monitor that situation as well, even 
though they worked for the State Department. We also worked to 
help plan for any other activities that might be developing in 
that particular area. We worked with a group to help with the 
EOD, for example, in one of the areas, and we also helped to 
provide some of the watch and communication when other senior 
U.S. officials visited the country.
    Mr. Gosar. How would that differ in a normal protocol under 
military jurisdiction?
    General Lovell. Well, we, as a JTF deputy commander----
    Mr. Gosar. Does it change the chain of command any?
    General Lovell. Yes, sir. Absolutely. That's the point I 
was getting to, absolutely. The SST team worked not for DOD, it 
worked for Department of State, and there were no other forces 
on the ground specifically that belonged to us.
    Mr. Gosar. In your testimony that the State Department was 
in the lead, as we just confirmed, for the effort to get back 
Libya on its feet, one of the things this committee has 
encountered in its investigation of the State Department's 
conduct in Libya is the overwhelming focus on normalization, 
whether it be the attempt to reduce security personnel at the 
diplomatic facilities, or so-called normal levels or attempt to 
view the government of Libya as normal host nation partners 
capable of providing meaningful protection like my colleague 
from Texas just talked about. Did you encounter this 
normalization philosophy in your dealings with the State 
Department during Operation Odyssey Guard?
    General Lovell. Yes, sir, I did.
    Mr. Gosar. Could you elaborate a little bit on that?
    General Lovell. Yes. For instance, a desire to create a new 
normal within this environment was basically redefining what I 
would consider a suboptimal situation.
    Mr. Gosar. Would you consider it hostile?
    General Lovell. Yes, sir.
    Mr. Gosar. Go ahead and continue.
    General Lovell. The hostile environment that we were 
dealing with, yeah. Our interaction certainly was not with our 
interagency counterparts. But to keep a low profile by the 
American Government and the U.S. military in that environment 
at the time we weren't deploying our forces. There was no 
Marine security detachment, et cetera, some of the other things 
that you might have seen in place in other areas where you'd 
consider a normal type of an environment that was secure.
    And I guess that's what it really comes down to, is how 
much security are you willing to--how insecure are you willing 
to be and still be present is really what it comes down to. And 
let's face it, our diplomats take risks every day, but in 
certain situations. It's always measured risk. And when we 
measure risk in an environment whereby some yardsticks it comes 
out, the measurement comes out short, and it seems to be 
hostile, you know, if it looks hostile and it smells hostile, 
it probably is a hostile environment.
    Mr. Gosar. Well, you complement, you make this worse, 
because we had an email in regards to what Al Qaeda was looking 
to do. Number one, take out the British Embassy, consulate, the 
international Red Cross, and then Benghazi, the consulate. We 
accomplished that, too, your intelligence. So wouldn't that 
have heightened the awareness that we were in a fractionalized, 
more hostile environment?
    General Lovell. You just described it, yes.
    Mr. Gosar. So, I mean, this is absurd to me. I mean, I'm 
talking to a man that's spent his life on the defense of our 
country. Are you aware of any other operation that was this 
disjointed in your career, the flagrant----
    General Lovell. In my career and in my experience, this 
operation absolutely in terms of the--yeah, no, sir, no.
    Mr. Gosar. So, I mean, you just made a comment just earlier 
that the best force is to put our forces there in a fragmented 
aspect, that's the best deterrent. So without those, aren't you 
inviting an attack?
    General Lovell. You very well could be through your own 
vulnerability.
    Mr. Gosar. Yeah. Okay. What was AFRICOM's role in Libya 
after Odyssey Guard ended? Did Libya receive any sort of 
heightened monitoring----
    Chairman Issa. The gentleman's time has expired, but you 
can finish quickly.
    Mr. Gosar. Yeah. Did Libya receive any sort of heightened 
monitoring after Odyssey Guard ended?
    General Lovell. Most certainly, as some of the other 
panelists have stated here today, we absolutely had a keen 
watch from a CT perspective, absolutely, as well as also just 
helping to monitor things going on in the nation in general.
    Chairman Issa. I thank the gentleman.
    Mr. Gosar. Thank you.
    Chairman Issa. We now go to the gentleman from Florida, Mr. 
DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman.
    General, can you explain the significance of the fact that 
the J2 shop at AFRICOM wasn't just the intelligence shop, but 
the intelligence and knowledge development shop?
    General Lovell. Yes. As I also provided in the written 
statement, the IKD, Intelligence and Knowledge Development 
Division, was the nomenclature used to identify what would be a 
typical 2 shop in other commands. Later on it became a J2 shop 
but retained a knowledge development piece. Knowledge 
development also has more to do with many sources that may be 
unclassified, open-source type reporting, et cetera. So you are 
trying to bring in and coalesce a more comprehensive 
intelligence picture utilizing knowledge.
    In a command and in a theater of operations such as Africa 
where you have a great need for intelligence and information 
but not many resources to go get it, using open source and 
other types of things could be your best source of information 
in some instances.
    Mr. DeSantis. So in that position you were able to observe 
the interplay between the military and the State Department as 
it relates to those issues, correct?
    General Lovell. The exchange of information, others as 
well, our three letter partners.
    Mr. DeSantis. In terms of the military response, I mean 
sometimes people, and we have had other hearings and they've 
said, well, look, we would not have been able to get there in 
time. And my response has always been once you know that you 
have men in contact, you don't know how long the whole 
enterprise is going to last. I mean, once the first word that 
we have problems at this annex, it could have lasted 12 hours, 
24, 48 hours. So the idea that somehow looking back in 
hindsight and saying, oh, well, we didn't marshal forces, we 
wouldn't have gotten there in time, that just doesn't satisfy 
me. Am I wrong in that?
    General Lovell. No, sir, I don't believe you are. It's one 
of the motivating factors for me to be here in this environment 
right now, so that we don't do this again.
    Mr. DeSantis. And my thing is, is you guys are waiting for 
the State Department, and State Department said we need to help 
these guys. And even if you ended up getting there a little bit 
late, I think it matters to the American people that there was 
the effort made and that we were willing as a Nation to devote 
the resources we had to try to save those men. I think it would 
matter to those families that that was done. And so I 
appreciate you coming here today.
    I mean, it seems to me this whole idea with the video, this 
deception that was propagated to the American people, one, it 
actually hurt the counterterrorism efforts, we have heard on 
this committee, immediately after. Libyans were upset with us 
because they had actually tried to take action against 
terrorists and here we're saying it's just a video and trying 
to downplay the fact, our own administration, that it was a 
terrorist attack. It actually I think brought more attention to 
the video throughout the Islamic world and gave Islamists a 
pretext to pursue more violence.
    And so you have a situation where the American people, 
based on the emails we have seen in this investigation, and the 
families of the fallen were deceived about who perpetrated that 
attack and have not been level with about our government's 
response. And so to this day, and we spend a lot of time 
talking about who did what in the White House and the emails, 
that's very important because the truth matters, but even to 
this day the perpetrators have not been brought to justice at 
all. I mean, if forces really couldn't have made it there in 
time to prevent these Americans from being killed, then at 
least we would like to see the administration avenge their 
death by bringing these terrorists to justice. And yet to this 
day, this has just been something that has happened, and we 
have not responded in kind, and I think that that really is 
something that bothers me to this day.
    So I thank the witnesses for coming, and I yield back the 
balance of my time.
    Chairman Issa. Would the gentleman yield?
    Mr. DeSantis. Yes.
    Chairman Issa. General, as the 2 shop, you weren't doing 
operational. So I don't want to get into the operational side. 
But from an intelligence standpoint, you earlier said that you 
knew, and I'll paraphrase, from the get-go that this was not a 
video inciting some sort of a demonstration but, in fact, a 
terrorist attack. That is correct?
    General Lovell. That's correct.
    Chairman Issa. And when you knew it, did the deputy, the 
Vice Admiral, did he know it?
    General Lovell. Most certainly. We kept him--I worked 
directly for him.
    Chairman Issa. And to your knowledge, did General Carter 
Ham then know it back on stateside?
    General Lovell. He certainly should. He was in the NMCC.
    Chairman Issa. And from your experience long time in the 
military, it is reasonable to assume that the Secretary of 
Defense also would have known what each of you in the chain of 
command knew since he was standing by General Ham?
    General Lovell. That's the way it should work, sir.
    Chairman Issa. So is there any conceivable way at 3:00 in 
the morning Libyan/Stuttgart time, is there any conceivable way 
that anyone could reasonably be promoting the YouTube video 
from the White House or from anywhere in the know in 
government?
    General Lovell. If they were in the know, with relative 
information that we were putting out, no, sir.
    Chairman Issa. So for someone to do that at 3:00 in the 
morning Stuttgart time, they would have to either not know what 
you, your boss and your boss' boss knew and presumably people 
above him, or they would have to be working contrary to what 
was known?
    General Lovell. That's correct.
    Chairman Issa. Thank you.
    We now go to the gentlelady from Wyoming, Ms. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman.
    General, I'm late to this hearing, but I have the advantage 
of your written testimony, so if these questions are a bit 
redundant, forgive me. But some things caught me in your 
written testimony. You said, ``We didn't know how long this 
would last''--``this'' meaning the attacks on 9/11/12--``We 
didn't know how long this would last when we became aware of 
the distress nor did we completely understand what we had in 
front of us, be it a kidnapping, rescue,'' or a protracted 
hostile engagement.
    Can you elaborate on that? What was it like watching from 
Stuttgart, watching what was happening in Benghazi?
    General Lovell. And I further went on to say or any or all 
of those things. It was a situation where we were very much in 
the hunt for information from the J2 shop perspective so we 
could give the commander, the vice on station and the commander 
back in D.C., the best information possible.
    So for us, we were very much on the trail through chat 
rooms, et cetera, using the mechanisms--not to go into it too 
deeply--but using the mechanisms that are out there for an 
intelligence organization to formulate understanding based upon 
facts. That's what we pursued, and we provided that to our on-
scene commander, the Vice Admiral, as well as up-channeled that 
and sent it across to other organizations so that we were 
sharing to the maximum extent possible in order to help build 
that picture of understanding and flesh it out even further. 
It's not good enough to know what's going on right there. We 
need to find attribution so that then you can take action. You 
want actionable intelligence.
    Mrs. Lummis. Okay. And at what point did you know that no 
assets were going to be sent to Benghazi that night, no special 
ops, no units?
    General Lovell. It began to become more and more evident. 
As the morning went on, it appeared as though that was to take 
place. But it even continued on further as we tried to help, 
you know, FBI and others get in there after, if you will, the 
death of those Americans, to go into the pursuit mode. As I 
just described, actionable intelligence is what you provide to 
an operator.
    Mrs. Lummis. And who was making the decisions not to go in, 
not to respond?
    General Lovell. That would be, from my perspective, it 
appeared that it was up-channeled beyond the Department of 
Defense, somewhere outside of DOD. We respond to civilian 
leadership, and that's what we would be looking for, civilian 
leadership.
    Mrs. Lummis. So normally those kinds of decisions would be 
made after the military conferred with civilian leadership in 
Washington?
    General Lovell. Yes. Now we're into my boss' boss' 
business, but indeed that would be who he would be talking 
with.
    Mrs. Lummis. Okay. And that would be the normal chain of 
discussion?
    General Lovell. Yes.
    Mrs. Lummis. Okay. Did you assume that those discussions 
were going on, those discussions between the military chain of 
command, the State Department, the Defense Department, and the 
White House?
    General Lovell. Absolutely. And the reason I can state it 
emphatically is because part of what we did as an intelligence 
organization, and all intelligence organizations, you're 
looking for what's the next step so you can ferret out the next 
best pieces of information and fact to help inform so that 
those operations can be effective.
    Mrs. Lummis. In your military experience, what would have 
been a more normal response in the middle of the night, 3 a.m. 
Stuttgart time, when you knew you had an Ambassador down and 
later in the night you knew you had personnel on the CIA annex 
roof and there was an exchange of fire? What would you have 
expected in your military experience to happen?
    General Lovell. Go, go, go.
    Mrs. Lummis. And when did it become apparent to you there 
would be no go?
    General Lovell. As the morning progressed and we had some 
people moving at some points in time, they're asked to stop 
midway through some of their deployments reaching Europe, et 
cetera, or other locations. It did not appear to us that there 
was any momentum behind it to make it happen.
    Mrs. Lummis. And how many of you were together in Stuttgart 
watching this unfold?
    Excuse me, Mr. Chairman.
    Mr. Chaffetz. [Presiding] Go ahead.
    Mrs. Lummis. My time has expired, General. Thank you.
    Mr. Chaffetz. General, I now recognize myself for 5 
minutes. I want to complete the thought from Congresswoman 
Lummis. I know you care deeply about our military family. You 
are one. We have parents, loved ones, brothers, sisters. What 
would you say to the mother of one of the people that was 
killed? Did we, did the military, did the Pentagon, did the 
United States of America do everything it could to save those 
people?
    General Lovell. I would say sorry for your loss and your 
sacrifice. We should have done more, whether it was in 
preparation prior to or execution at the time, even if we 
simply just burned gas in airplanes moving people.
    We have to have the confidence of the American people that 
provide us with their sons and daughters, brothers and sisters, 
moms and dads, and continue to fill the uniforms and to fill 
those civilian positions that are so key and so brave as well 
out there in harm's way. We have to ensure that we rebuild the 
trust. This is Bob Lovell talking to you now. We have to 
rebuild their trust. It's a big part of why I want to be here, 
because we need to say to them, we should have done more, and 
we owe it to the memory of those four people that are fallen 
and to those that were hurt and wounded.
    Mr. Chaffetz. Could we have done more?
    General Lovell. Sure, we could have done more.
    Mr. Chaffetz. Secretary Hillary Clinton whispered, 
evidently, according to one of the mothers, whispered in the 
ear, said it was the video that had done this. Is that true?
    General Lovell. Absolutely not, sir.
    Mr. Chaffetz. When did you think it was over? When were 
Americans in harm's way? When were they safe?
    General Lovell. They're still not safe today, sir.
    Mr. Chaffetz. When did you think the fight was over?
    General Lovell. We're still there.
    Mr. Chaffetz. That night, though, September 12, while we 
still had people in Benghazi, when was the fight over?
    General Lovell. When the people from Benghazi finally made 
their way back and were extracted back to Tripoli.
    Mr. Chaffetz. Your opinion, your vantage point there in 
Libya, was Al Qaeda on the run?
    General Lovell. No, sir.
    Mr. Chaffetz. What was going on with Al Qaeda September 11, 
September 12, in the months leading up to that? Were they on 
the run?
    General Lovell. No, sir. They were actually, affiliates and 
other Islamic extremists, were actually responsible for the 
perpetration of these attacks.
    Mr. Chaffetz. Are they growing in strength, shrinking in 
strength?
    General Lovell. My estimation would be that they were 
growing in strength, in number and in capability.
    Mr. Chaffetz. My understanding is that your shop, J2, 
AFRICOM, on September 14, 17 hours, 17 hours before the Ben 
Rhodes email, they actually produced a document to my ranking 
member and other people on this committee, the front of this 
email is stamped Secret, but the second page, I believe, is not 
classified. It's not stamped with anything. In deference, I'm 
not putting it out there, but what I do hope this committee 
does, what I do hope the American people can see for themselves 
is what the military intelligence thought was happening there 
in Libya, and clearly, they put this out saying it says 
multiple times, I've read it myself. It says Al Qaeda. It says 
Ansar al-Sharia. It says AQIM. And that this was sent to the 
State Department as the best intelligence that you had, to the 
State Department, as to what happened at the attack and what 
the attack profile might look like if we wanted to counter. Do 
you have knowledge of this document? Are you familiar with this 
document, and as I described it, would that be an accurate 
representation?
    General Lovell. Not seeing the document itself, but I will 
certainly comment on the information that you just 
characterized and, yes, that was the picture that we were 
working with. Those were the facts we were working with.
    Mr. Chaffetz. And to my fellow colleagues here, again, the 
facts as we know them, the military intelligence, folks sharing 
with the IC community, sharing with the State Department, they 
believed that it was Al Qaeda, AQIM, Ansar al-Sharia, that was 
responsible for this attack. That was the best information. 
Those were the facts as we have them. My time is expired.
    I now recognize the ranking member, Mr. Cummings.
    Mr. Cummings. I thank the gentleman for yielding. General, 
first of all, I want to thank you for your testimony. As I sit 
here and I listen to many witnesses as a lawyer, I could tell 
that this is something that is very important to you, and I 
thank you for coming forward. And you talked about the military 
and how we have to protect them and our State Department people 
and certainly, and I agree with you a million percent. And one 
of the things that I've done as a member of this committee is 
also try to protect the integrity of the people who come before 
us. We have had General Ham, Admiral Leidig, Admiral Losey, and 
they came to different opinions, and that's okay. They're 
probably watching this right now, and I want to make sure that 
just as you, I'm sure, feel very strongly about your opinion, I 
want to make sure that you're saying what I think you're 
saying, so that they are clear, because they are men who have 
given their lives for our country, too. And so I just want to 
ask you a few things.
    I want to go to you, because it seems like you're saying 
one thing in response to questions from this side of the room 
and another thing in response to questions from the other side 
of the room. In your written testimony to the committee you 
said this, ``The discussion is not in the could or could not in 
relation to time, space and capability. The point is we should 
have tried.'' But when Mr. Connolly was asking you questions, 
you said you were not in the chain of command. You said you 
weren't really talking about Benghazi, but about the future, 
and you said that you agreed with the Republican chairman of 
the House Armed Services Committee Buck McKeon, who said that 
the military did, in fact, try. So let me just go through the 
specific steps the military took on that night and ask you 
whether they are accurate because, again, we have got people 
here like General Ham who've testified before us and given 
statements that maybe give different opinions.
    First, Chairman McKeon found that our military, including 
General Ham, General Dempsey and others, authorized two Marine 
fast platoons in Rota, Spain to prepare to deploy. Do you agree 
that this did, in fact, occur? Did that happen? Do you know?
    General Lovell. That they moved forward, yes.
    Mr. Cummings. Yes or no?
    General Lovell. Yes.
    Mr. Cummings. Second, Chairman McKeon found that a special 
operations unit assigned to the European command known as 
Commander's In-extremis Force, CIF, which was training in 
Croatia was ordered to move to a U.S. Naval air station in 
Sigonella, Italy. Do you dispute that?
    General Lovell. No, sir.
    Mr. Cummings. And, third, Chairman McKeon found that a 
special operations unit in the United States was also 
dispatched to the region. You don't dispute that, do you?
    General Lovell. No.
    Mr. Cummings. So I'm afraid I just don't understand why you 
are testifying here today under oath that the United States 
military did not try to help the night of the attacks, and how 
do you explain that? And if I'm misstating you, correct me.
    General Lovell. Yes, I did not say that they did not try 
the evening of those attacks.
    Mr. Cummings. So what did you say? I'm sorry. Again, I know 
General Ham is watching this, so I want him to be clear.
    General Lovell. I'm not disputing any of their actions or 
testimony in that. What I'm speaking to is as a Nation, we 
should try to do more, that the preparations prior to, the 
capability and capacity that we put forward in order to deal 
with situations such as this, so that in the future as we find 
ourselves out there in a expeditionary government environment 
or just in places around the world that we have provided as 
much military capacity and capability as we can muster so that 
we can support the people and have their backs in these 
situations. My testimony was not to counter the previous 
statements----
    Mr. Cummings. I just wanted to make sure we were clear. 
That's all. And so we all agree that we would have liked, all 
of us would have liked the military to have responded more 
quickly, and changes have been made to allow the military to 
respond faster, but the facts are that the military did 
mobilize forces. It did act and it did try. So will you concede 
that point now that you have been presented with the actual 
evidence? I mean, so you agree that they did try?
    General Lovell. I have always stated that they had tried 
and acknowledged that. My point is that there is more that we 
should be able to do, and if there is a further line that we 
can move towards, if across the interagency, this is spoken 
about in the way that you described it to me, sir, as a DOD 
issue. This is not about a DOD issue. This is an interagency 
issue, and that's what we really need to look at here. And I 
respect absolutely what the House Armed Services Committee put 
together, but they looked at it from a DOD perspective. We need 
to look, and why I came to this body was because I felt that it 
looked more broadly across the spectrum of all of the agencies. 
And the fact of the matter is, that's the perspective we need 
to have so that we can see exactly across the board how did we 
interact? How did we behave? How did that translate into 
action? And most importantly in many situations, inaction. As 
we have heard from some of my colleagues here, inaction can, at 
times, even be worse so that we can do that in the future in a 
different way, but we need a comprehensive across-the-board 
interagency view so that we can move ourselves forward into 
those next steps.
    Mr. Cummings. Again, I want to thank you very much.
    General Lovell. Thank you, sir.
    Chairman Issa. [Presiding.] Mr. Cummings, would you yield 
for a question. I'm trying to understand. All of the units that 
you mentioned were deployed to Tripoli. None of them were ever 
headed to Benghazi. You know that; right?
    Mr. Cummings. Yes.
    Chairman Issa. So when it comes to what was done for the 
people dying in Benghazi, none of those were going to help 
them. They weren't activated for the people dying in Benghazi.
    Mr. Cummings. Well, I asked him what I wanted to ask him, 
and he was very clear, and I appreciate it.
    Chairman Issa. Thank you. We now go to the gentlelady from 
Wyoming, Ms. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman. And I yield such 
portion of my time to Mr. Chaffetz as he wishes to use.
    Mr. Chaffetz. I thank the gentlewoman from Wyoming. To 
follow up on the chairman's point, General, and to point the 
ranking member is trying to make. We had two fast teams that in 
a public setting General Ham has said can respond within hours. 
And I think that begs the question why, why, did the fast team 
go into Tripoli and it took them almost 24 hours to get there, 
24 hours? These people operate on an end plus just a few hours, 
and yet it took them 24 hours. I think that begs the question.
    The other thing is it's very clear that the fast team was 
not intended to go engage in the fight. That's not what a fast 
team does. It's not what they're engaged to do. It's not what 
they train to do. They go in to secure an embassy. If you want 
to put somebody in the fight, somebody who's going to go 
extract people who are under the gun, there are other troops 
and other types of assets that you would put in there. But 
these people were not put into place to go into Benghazi. And 
the CIF, the Commanders In-Extremis Force, again, begs the 
question. This fight started as 9:40 p.m. The General has just 
said it was six something in the morning before they were able 
to get out of Benghazi. It was so bad in Tripoli that they had 
to evacuate the embassy in Tripoli and go to another secure 
facility.
    So, again, did they try to do what they were ordered to do? 
I think the General is absolutely right. Were they ordered to 
engage in the fight in Benghazi? The answer is unfortunately 
no. That's the question. That's the concern.
    General, do you have any comments about what I said? Is 
there anything that you would disagree with, take issue with or 
want to further comment on?
    General Lovell. No, sir, I would not.
    Mr. Chaffetz. What about the idea that the fast team is 
getting ready to deploy? People are dead. We're taking a fire. 
We're in a fight. Why did the fast team have to change clothes 
out of their military uniforms and into civilian clothes? Do 
you have any knowledge about that?
    General Lovell. The knowledge I have I was not directly 
related in, but I watched the conversation ensue in the room. 
It was a sensitivity to the impact potentially in Libya.
    Mr. Chaffetz. Well, what do you think about it? What do you 
think about it?
    General Lovell. Sir, at that point in time, someone must 
have thought it was a great idea to have Marines be out of 
uniform potentially to go in there, but I like Marines in 
uniform and Marines to----
    Mr. Chaffetz. Why do they wear a uniform?
    General Lovell. Pardon me, sir?
    Mr. Chaffetz. Why? Why do they wear a uniform?
    General Lovell. Why wouldn't they?
    Mr. Chaffetz. Why do they wear a uniform?
    General Lovell. They wear a uniform because without saying 
a word, it's the visual symbol of the United States of America, 
the United States Marine Corps and what it's represented for 
hundreds of years.
    Mr. Chaffetz. The outrage here is we got to fight. We got 
Americans dying. And somebody at the State Department it looks 
like wanted them to change their clothes because they didn't 
want them going in there with the American flag. They didn't 
want them going in there wearing the American uniform. They 
wear it to carry ammunition, to carry weapons. They do it so 
they know who's on who's side. And it took them almost an hour 
later to get them to engage because they wanted them to look 
better. That's the outrage. General, do you have any other 
personal comment? You've been in the military for more than 33 
years. Why, how, have you ever seen that happen before? We're 
in the fight. How does that make you feel?
    General Lovell. I don't want to see that happen again. If 
Marines are our choice, and they're going forward, they're in 
uniform because they're our Marines. We have other forces that 
can go places that aren't wearing that uniform.
    Mr. Chaffetz. And they were going to Tripoli, correct? They 
weren't going to Benghazi.
    General Lovell. That's right.
    Mr. Chaffetz. I'm sorry?
    General Lovell. Yes, sir. That's correct.
    Mr. Chaffetz. That were headed where?
    General Lovell. They were going into Tripoli.
    Mr. Chaffetz. They weren't even going to Benghazi. That's 
the point. I thank the gentlewoman for her time.
    Mrs. Lummis. Reclaiming my time. General, I have one last 
question. It's about a gentleman named Andrew Shapiro. This is 
someone who is a former Assistant Secretary of State, former 
Senate staffer to former Secretary Clinton, played a prominent 
role in coming out to AFRICOM and providing guidance on what 
the military would do with respect to Libya. Did Mr. Shapiro's 
prominence seem odd to you given your military experience?
    General Lovell. He was in the Pol-Mil Bureau. The Pol-Mil 
Bureau was active with Africa Command, especially through our 
J5 shop. His area was influential in that we would certainly 
need to coordinate what it is that we were doing with that 
interagency partner, and he did come to the command and 
interact with members in the command.
    Mrs. Lummis. My time is expired. I yield back. Thank you.
    Chairman Issa. I thank the gentlelady. We now go not 
gentleman from Arizona, Dr. Gosar.
    Mr. Gosar. General Lovell, in your testimony you described 
the new normal in Libya was a formerly intact country now 
fractured and divided along many lines. Was there anything 
normal about the so-called new normal in Libya after Qadhafi, 
and could you elaborate on that?
    General Lovell. Normal, by my definition, would be a 
functioning government that has intact a political process, a 
prospering economy, and a military that's disciplined and able 
to fend for the defense of the nation. That, as we have heard 
here today, the Libyans continue to struggle with as they move 
forward.
    Mr. Gosar. But particularly after the fall of Qadhafi, it 
becomes more chaotic. Would you agree?
    General Lovell. Absolutely.
    Mr. Gosar. Now, in your role as intelligence, could you 
highlight what you knew beforehand about eastern Libya? What 
were you predisposed as far as following intelligence?
    General Lovell. Well, in eastern Libya, obviously that's 
where, for us, some of the rebel activity at the time began. 
Much of what we also watched in that area was who were, what we 
would consider the good guys and the bad guys. What really were 
the roles that those forces were in that were militias or 
others. When you are in the J2 shop, you're continuously trying 
to identify, especially forces that are not part of government 
forces, you are trying to discern all the time how friendly to 
our viewpoint are those types of forces, so we spent a lot of 
time on eastern Libya as well other areas around the country 
because it's so fractionalized by militia groups and entities 
that have varying interests.
    Some can be interested in their community being a safe 
place to live and prosper and can be fairly what we would 
consider benign in their viewpoint, but then there are others 
where we would look at them, and we would consider them 
extremists, whether they would be Islamist extremists or 
others, so constantly trying to keep track of what was going on 
around the country, not just even in that particular portion.
    Mr. Gosar. But in that portion, would you consider maybe a 
hot bed?
    General Lovell. A hot bed, absolutely, that's where the 
strongest part of the revolution came from.
    Mr. Gosar. So a normal CEO, or somebody that's receiving 
this intelligence, has got to put higher priority on that; 
right?
    General Lovell. That's one of the areas in that country to 
put the high priority on, absolutely, yeah.
    Mr. Gosar. I want to go back to the Accountability Review 
Board from 1999 in Nairobi, Kenya. I mean, we outlined 
specifics that should have been in place, so the State 
Department should have known. I mean, we just had Admiral 
Pickering, who was part of that discussion, sitting here in 
front of this committee earlier. They should have known, 
because if we had have followed those protocols, we wouldn't 
have had this catastrophe. Do you believe this event was 
totally preventable, in Benghazi?
    General Lovell. Totally preventable?
    Mr. Gosar. Yep.
    General Lovell. No, not totally preventable. We're dealing 
in an environment--let me clarify my answer. The reason I don't 
believe it's totally preventable is because we're dealing in a 
hostile environment, in an environment where we're dealing with 
extremist organizations.
    Mr. Gosar. I guess let me qualify that.
    General Lovell. Okay.
    Mr. Gosar. Given the information that should have been 
normally going up the chain for somebody to make a decision, 
this was preventable?
    General Lovell. Oh, in order to perhaps not even expose 
yourself and be there.
    Mr. Gosar. Exactly. Are you familiar with the term 
``malpractice''?
    General Lovell. I certainly don't want to have it happen to 
me, yeah.
    Mr. Gosar. Well, I mean, I'm a dentist impersonating a 
politician, so I mean, America doesn't understand a lot of our 
jargon, and what happens is when an executive who is in charge 
of facilitating knows that the Inman Standards of a consulate 
do not meet those qualifications, that they're on a hot bed of 
activity, they knew something was coming along those lines, 
that you should have prevented this, would you consider this 
malpractice?
    General Lovell. By the definition that you gave, I would go 
along with that.?
    Mr. Gosar. Ms. Schake?
    Ms. Schake. I am hesitant, to be honest. And the reason is 
because of the confidence I place in the good judgment of 
Ambassador Chris Stevens, who made a set of choices himself 
about his engagement, his trip to Benghazi, and while I 
absolutely agree with you that the State Department should have 
been paying more attention to the growing jihadist threat and 
the growing militancy of militia in Benghazi, I would not want 
to take away from an American ambassador the ability to assess 
risk of accomplishing his mission or putting himself in harm's 
way, which I think Chris Stevens did a lot of in Benghazi to 
tragic effect.
    Mr. Gosar. But doesn't he also have the impugned liability 
to those that are surrounding him as well?
    Ms. Schake. That's an excellent question.
    Mr. Gosar. Yeah. Last one, Mr. Ross.
    Mr. Gartenstein-Ross. Since I wasn't in the room, I can't 
speak to whether it was or not.
    Mr. Gosar. But given the circumstances of what we have seen 
played out by the information, there was definite neglect.
    Mr. Gartenstein-Ross. I think we see a lot of deficiencies, 
both in terms of what happened at the time and particularly----
    Mr. Gosar. And leading up to.
    Mr. Gartenstein-Ross. Both leading up to what happened at 
the time and also thereafter the response. As you know, sir, 
malpractice is a very steep standard, so I couldn't speak to 
that, but the deficiencies are clear.
    Mr. Gosar. I thank the gentlemen and yield.
    Chairman Issa. I thank all of you, and I'll yield myself my 
final 5 minutes.
    General, and this really applies in some ways to all of 
you, but I'm going to concentrate on the General for a moment. 
General, when I was on active duty, I did joint exercises, had 
the opportunity to serve with a lot of other services, and they 
used terms like JAMFU and JAFU and all kinds of terms. They may 
not be as popular today, but they generally stood for joint 
Army-Air Force foul-up. Not always that way. Joint Army-Marine 
foul-up. But in your case, this wasn't about the joint command 
that's known as AFRICOM, this was about interagency.
    If I understand you correctly, on 9/11, leading up to it 
with the normalization policy, but on 9/11, with the assets 
that were available in and out of Libya, you had a State 
Department, to a certain extent, under Mr. Shapiro, under 
somebody who had special authority for one country in Africa 
while near east, the rest of it was run by other people. You 
had one country, Libya, that was being run by a different group 
of people, and you mentioned this earlier. And they determined 
whether or not you got to go. Is that correct?
    General Lovell. When you say ``got to go,'' you're talking 
about the----
    Chairman Issa. If Deputy Assistant Secretary, I guess he 
is, Andrew Shapiro, if he had called the Deputy Combatant 
Commander and said we need you to put all assets on the target, 
would you have been taking action at that command in concert 
with the European command to begin moving assets toward 
Benghazi sooner?
    General Lovell. From my perspective working as a staff 
officer there in J2 as I saw what was going on surrounding, it 
appeared to me that had the State Department made such a 
request within the authority that existed on the part of the 
Combatant Commander, they could have done more.
    Chairman Issa. And within the joint----
    General Lovell. That's my understanding.
    Chairman Issa. Right, and within the joint interagency 
arrangement, you saw before, during and after 9/11, 2012, the 
decision on movement, if I understand you correctly, did not 
belong to the Department of Defense. It belonged to the 
Department of State.
    General Lovell. There are certain things a Combatant 
Commander can do, but a greater sense of interaction and what 
it is that would happen within that country, absolutely, 
consultation with Department of State would have been 
warranted.
    Chairman Issa. So in your opinion, the Vice Admiral, 
General Ham, yourself, nobody out of Stuttgart had the 
authority to unilaterally launch combatant aircraft or 
personnel?
    General Lovell. Combatant Commander has certain 
authorities, absolutely. How coordinated they would be with the 
outcome desired by the State Department and the executive 
within our Nation, that's where that Combatant Commander has 
that dialogue along with the Secretary of Defense to ensure 
that we take the right action?
    Chairman Issa. Basically put a suit and tie on, dress nice, 
and hide your weapons to go in as Marines, to take a little 
liberty with the order that was given to get out of your 
uniforms before going into Tripoli, that was a State Department 
decision. That would not, to your knowledge, have been a 
Combatant Commander decision?
    General Lovell. I wouldn't think a Combatant Commander 
would say that, but it's not a typical approach to take with 
Marines that you're sending forward into harm's way, in my 
experience.
    Chairman Issa. Well, you know, we're an armed service, and 
if you show a heavy assault rifle or a machine gun, generally 
the uniform just emphasizes who you are because you're showing 
what you can do. The fast team did have a number of weapons.
    In your opinion, now I'll have you take off the September 
11th hat, as a retired long-serving military officer who saw 
the relationship and the arrangements that existed for Africa 
at the African Command relative to how decisions were made to 
go or not go in support of Americans in harm's way, would you 
insist on material changes in how we do business so that there 
could be faster response in the future?
    General Lovell. Sir, one of the very first things I would 
look at would be the capacity and capability that's afforded to 
the Combatant Commander that would be immediately at his 
disposal. That is absolutely necessary just given the sheer 
size of the continent itself and the number of governments that 
exist on the continent, the number of countries. So many things 
can happen on that continent in any of those countries, and it 
can be anything from a need for a neo evacuation to, you know, 
use of force and power, anywhere along that spectrum.
    First and foremost would be to properly, or equip to the 
best extent possible, agreed there were other arrangements with 
CENTCOM and UCOM, et cetera, and we have finite resources, and 
we're doing the best we can. I understand that. But in this 
instance, it seems focused on this particular command, I would 
look and say if we're asking for them to do more and to ensure 
that we have got the backs of all of our Americans around the 
continent and we're partnering with the African partners that 
we have there on the continent, we certainly need these types 
of resources in locations proximate to where they would have to 
be engaged.
    Chairman Issa. Thank you. Any other witness have anything 
else? In that case, I'd like to thank the witnesses for taking 
time out of their busy schedules to appear before us today, and 
we stand adjourned.
    [Whereupon, at 1:26 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC] [TIFF OMITTED] T8089.032

[GRAPHIC] [TIFF OMITTED] T8089.033

[GRAPHIC] [TIFF OMITTED] T8089.034

[GRAPHIC] [TIFF OMITTED] T8089.035

[GRAPHIC] [TIFF OMITTED] T8089.036

[GRAPHIC] [TIFF OMITTED] T8089.037

[GRAPHIC] [TIFF OMITTED] T8089.038

[GRAPHIC] [TIFF OMITTED] T8089.039

[GRAPHIC] [TIFF OMITTED] T8089.040

[GRAPHIC] [TIFF OMITTED] T8089.041

[GRAPHIC] [TIFF OMITTED] T8089.042

[GRAPHIC] [TIFF OMITTED] T8089.043

[GRAPHIC] [TIFF OMITTED] T8089.044

[GRAPHIC] [TIFF OMITTED] T8089.045

[GRAPHIC] [TIFF OMITTED] T8089.046

[GRAPHIC] [TIFF OMITTED] T8089.047

[GRAPHIC] [TIFF OMITTED] T8089.048

[GRAPHIC] [TIFF OMITTED] T8089.049

[GRAPHIC] [TIFF OMITTED] T8089.050

[GRAPHIC] [TIFF OMITTED] T8089.051

[GRAPHIC] [TIFF OMITTED] T8089.052

[GRAPHIC] [TIFF OMITTED] T8089.053

[GRAPHIC] [TIFF OMITTED] T8089.054

[GRAPHIC] [TIFF OMITTED] T8089.055

[GRAPHIC] [TIFF OMITTED] T8089.056

[GRAPHIC] [TIFF OMITTED] T8089.057

[GRAPHIC] [TIFF OMITTED] T8089.058

[GRAPHIC] [TIFF OMITTED] T8089.059

[GRAPHIC] [TIFF OMITTED] T8089.060

[GRAPHIC] [TIFF OMITTED] T8089.061

[GRAPHIC] [TIFF OMITTED] T8089.062

[GRAPHIC] [TIFF OMITTED] T8089.063

[GRAPHIC] [TIFF OMITTED] T8089.064

[GRAPHIC] [TIFF OMITTED] T8089.065

[GRAPHIC] [TIFF OMITTED] T8089.066

[GRAPHIC] [TIFF OMITTED] T8089.067

[GRAPHIC] [TIFF OMITTED] T8089.068

[GRAPHIC] [TIFF OMITTED] T8089.069

[GRAPHIC] [TIFF OMITTED] T8089.070

[GRAPHIC] [TIFF OMITTED] T8089.071

[GRAPHIC] [TIFF OMITTED] T8089.072

[GRAPHIC] [TIFF OMITTED] T8089.073

[GRAPHIC] [TIFF OMITTED] T8089.074

[GRAPHIC] [TIFF OMITTED] T8089.075

[GRAPHIC] [TIFF OMITTED] T8089.076

[GRAPHIC] [TIFF OMITTED] T8089.077

[GRAPHIC] [TIFF OMITTED] T8089.078

[GRAPHIC] [TIFF OMITTED] T8089.079

[GRAPHIC] [TIFF OMITTED] T8089.080

[GRAPHIC] [TIFF OMITTED] T8089.081

[GRAPHIC] [TIFF OMITTED] T8089.082

[GRAPHIC] [TIFF OMITTED] T8089.083

[GRAPHIC] [TIFF OMITTED] T8089.084

[GRAPHIC] [TIFF OMITTED] T8089.085

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
